<html>
<title> - [H.A.S.C. No. 112-58]  SUSTAINING NUCLEAR DETERRENCE AFTER NEW START</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 112-58] 

             SUSTAINING NUCLEAR DETERRENCE AFTER NEW START 

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 27, 2011


                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    SUBCOMMITTEE ON STRATEGIC FORCES






















                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                 Tom Karako, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant






































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, July 27, 2011, Sustaining Nuclear Deterrence After New 
  START..........................................................     1

Appendix:

Wednesday, July 27, 2011.........................................    37
                              ----------                              

                        WEDNESDAY, JULY 27, 2011
             SUSTAINING NUCLEAR DETERRENCE AFTER NEW START
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Strategic Forces.......................     3
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Halperin, Dr. Morton H., Senior Advisor, Open Society Foundations     7
Miller, Hon. Franklin C., Principal, The Scowcroft Group.........     9
Payne, Dr. Keith, Professor and Head, Graduate Department of 
  Defense and Strategic Studies, Missouri State University.......     5

                                APPENDIX

Prepared Statements:

    Halperin, Dr. Morton H.......................................    55
    Miller, Hon. Franklin C......................................    62
    Payne, Dr. Keith.............................................    46
    Sanchez, Hon. Loretta........................................    44
    Turner, Hon. Michael.........................................    41

Documents Submitted for the Record:

    ``De-alerting Strategic Missile Forces,'' by Franklin C. 
      Miller, from the book In the Eyes of the Experts: Analysis 
      and Comments on America's Strategic Posture (Taylor A. 
      Bolz, editor; United States Institute of Peace Press, 
      Washington, D.C., 2009)....................................    77
    ``On Missile Defense,'' Chapter 3 from America's Strategic 
      Posture: The Final Report of the Congressional Commission 
      on the Strategic Posture of the United States (William J. 
      Perry, chairman, and James R. Schlesinger, vice-chairman; 
      United States Institute of Peace Press, Washington, D.C., 
      2009)......................................................    82

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Sanchez..................................................    89
             SUSTAINING NUCLEAR DETERRENCE AFTER NEW START

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Wednesday, July 27, 2011.
    The subcommittee met, pursuant to call, at 3:12 p.m. in 
room 2118, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Good afternoon. I want to welcome everyone to 
the Strategic Forces Subcommittee's hearing on sustaining 
nuclear deterrence after New START [Strategic Arms Reduction 
Treaty].
    With the National Defense Authorization Act for fiscal year 
2012 recently passed by the House, this represents our 
subcommittee's first non-budget-driven hearing for the 112th 
Congress. Our panel consists of non-governmental witnesses, 
three distinguished gentlemen who each have served in previous 
administrations in some senior capacities relating to our 
discussion today.
    We have with us Dr. Keith Payne, a former Commissioner of 
the Strategic Posture Commission and Professor and Head of the 
Washington-based Graduate Department on Defense and Strategic 
Studies for Missouri State University; Dr. Morton Halperin, 
also a former Commissioner with the Congressional Strategic 
Posture Commission and a Senior Advisor to the Open Society 
Foundations; and finally, Franklin Miller, a Principal of the 
Scowcroft Group who has served in senior capacities in a number 
of administrations.
    The witnesses have been asked to provide their assessment 
of post-New START U.S. nuclear posture and policy, including 
potential reduction of the U.S. stockpile below New START 
levels; the significance of nuclear modernization; 
considerations relating to a recently announced upcoming review 
of U.S. deterrence requirements; and nonstrategic nuclear 
weapons forward-deployed in Europe for extended deterrence and 
assurance.
    Today's hearing is just one in an ongoing series of events 
by which the House Armed Services Committee will conduct 
oversight of these issues. On July 7th, the full Armed Services 
Committee received a classified briefing from the Department of 
Defense, the Department of State, the National Nuclear Security 
Administration, and STRATCOM [United States Strategic Command] 
on several topics being considered today.
    We have also notified the Administration that we intend to 
hold an open hearing on these same issues again this fall with 
testimony by a panel of Government witnesses.
    I want to thank our witnesses for appearing today and 
further thank them for their leadership and service to our 
country on these issues.
    I will keep my comments brief to allow ample time for 
members to ask questions, but I would like to highlight four 
important areas I hope our witnesses and our discussion may 
touch upon today.
    First, I want to emphasize the bipartisan consensus that 
has emerged on both ends of Pennsylvania Avenue about the 
urgent need to modernize the U.S nuclear enterprise in order to 
be able to create a sustainable deterrent for ourselves and for 
our allies.
    After two decades of neglect, our nuclear enterprise has 
fallen into hard times. Awareness of these facts has been 
spurred in part by the Strategic Posture Commission created by 
this subcommittee under the leadership of its former chair, 
Ellen Tauscher, and also by the experience of the debate over 
the New START treaty.
    Specifically, I think we have come to see a pragmatic 
bipartisan convergence on two basic points: One, that nuclear 
abolition is a long way off; and two, that we will ensure that 
our nuclear deterrent remains credible for the foreseeable 
future.
    To be sure, full funding for nuclear modernization is 
costly and difficult in these challenging economic times, but 
it is necessary. Pledging $85 billion over 10 years for nuclear 
weapons activities, President Obama noted in December that ``I 
recognize that nuclear modernization requires investment for 
the long-term, in addition to this one year budget increase. 
This is my commitment to Congress--that my Administration will 
pursue these programs and capabilities for as long as I am 
President.''
    This statement, built upon the observation of the November 
update to the Section 1251 Report, namely that, ``given the 
extremely tight budget environment facing the Federal 
Government, these [increased budget] requests to the Congress 
demonstrate the priority the Administration places on 
maintaining the safety, security and effectiveness of the 
deterrent.''
    To be sure, we have our policy differences, but I believe 
that even our differences have helped spur a healthy 
constructive debate. In all candor, Congressional focus on 
these issues has languished for too many years. But I believe 
the events of recent years have the potential to usefully renew 
attention by Members of both Houses of Congress.
    My second point, however, is one of concern, the ink is 
barely dry on New START and already senior administration 
officials are describing their ambitions to move to deeper 
nuclear reductions below the treaty levels--changes which could 
include cuts to our nondeployed hedge stockpile, potentially 
eliminating a leg of the triad, altering the long-established 
U.S counterforce nuclear target strategy and reducing alert 
postures for our forces. Administration officials have even 
indicated that reductions could be made unilaterally.
    Premature steps to cut our nuclear force below New START 
levels and, in particular, cuts which outpace modernization 
progress could threaten to upset some of the broad consensus 
which has been so carefully acquired.
    My third point concerns an upcoming 90-day review of the 
deterrence requirements announced on March 29th by National 
Security Advisor Tom Donilon for the express and apparently 
single-minded purpose of creating options for further 
reductions. As we all know, strategy must drive force 
structure, not the other way around. But we also know that it 
is easy to change assumptions in order to get the answers you 
want.
    This committee will continue to conduct oversight on this 
review and decisions about U.S. nuclear strategy and force 
structure more broadly. We also continue to monitor another 
study: The Deterrence and Defense Posture Review currently 
ongoing for NATO [North Atlantic Treaty Organization]. Which 
brings me to my fourth and final point: the forward deployment 
of U.S. nonstrategic weapons in Europe has long contributed to 
Alliance solidarity and the transatlantic link. NATO's new 
Strategic Concept reaffirms that NATO is a nuclear alliance and 
the importance of broadest possible participation by allies in 
the nuclear mission.
    Some of us are concerned that the Administration 
potentially, in concert with some Western allies, might try to 
use the Defense Posture Review that is being undertaken to 
pressure Central and Eastern Europeans to begrudgingly accept 
substantial reductions or even complete withdrawal of these 
weapons from Europe, an act which could have untold and adverse 
consequences for the future of the world's oldest and most 
successful alliance.
    This year the House acted to address each of these 
concerns. The House-passed NDAA [National Defense Authorization 
Act] included provisions which would sustain the linkage 
between progress in nuclear modernization to both further 
nuclear cuts and New START implementation; involve Congress in 
the long-term decisionmaking about deeper reductions; and slow 
down withdrawals.
    The Administration expressed strong objections about some 
of these provisions and issued veto threats about others.
    Again, I want to thank all of you for being here today, and 
I look forward to your testimony on these important issues. 
These are issues that our committee has been diligently 
reviewing and discussing and debating. I appreciate your 
attention to those issues.
    And I want to recognize my ranking member, Ms. Sanchez.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 41.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
  CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Ms. Sanchez. Thank you, Mr. Chairman, and I do deeply 
apologize for having gotten held up in my office. I try not to 
let that happen.
    Gentlemen, thank you for being with us today. Dr. Payne, 
Dr. Halperin and Mr. Miller, thank you so much.
    We look forward to hearing your thoughts about the future 
of nuclear weapons in this century, and I guess the progress of 
what it really takes to maintain a strong and reliable 
deterrent. Given everything that is going on--the New START 
treaty--the desire may be to eliminate even more of nuclear 
weapons if we could, and how we might, and what opportunities 
might exist to do that and of course, other players, other than 
Russia and ourselves, who have nuclear weapons.
    I think that the Administration has been committed to 
unprecedented investments in maintaining our nuclear arsenal, 
as my chairman here said. I think the President is leading 
much-needed efforts to reduce the dangers posed by nuclear 
weapons in a post-Cold War era. He gave us part of his vision 
to strengthen our national security when he included those 
issues in his 2009 Palm Sunday speech in Prague, including New 
START as being the first step for further reduction, the 
ratification of the Comprehensive Test Ban Treaty, reducing the 
role of nuclear weapons, and talking about strengthening the 
Nuclear Non-Proliferation Treaty.
    He noted in his Prague speech the existence of thousands of 
nuclear weapons and the most dangerous--that it was the most 
dangerous legacy of the Cold War. And even considering the 
other players out there in the world, the fact of the matter is 
that about 95 percent of the nuclear weapons still exist in 
Russia's and our hands. So I think that is why we are so 
interested in New START and we are interested in other 
opportunities that might exist. And yeah, a little 
apprehensive, all of us I think, about what it would mean to go 
to lower levels and whether that would take away our deterrence 
factor or whether that would make us safer or--you know, we 
have a lot of questions about that.
    And of course, you three, in particular, in front of us, we 
hope have the answers to some of that anxiety that we may have.
    So in the National Defense Authorization Act-mandated 
Commission on the Strategic Posture for the United States, in 
which I know that the two doctors in front of us participated, 
it included by saying, ``This is a moment of opportunity to 
revise and renew U.S. nuclear strategy.'' And I agree with 
that.
    Some of our weapons are old. They may not be the most 
efficient, smartest way to just keep having them. Maybe we 
don't need all that firepower there. Maybe we are safer without 
them. I think it really is a good time for us to take a hard 
look at what we have, what others have, and also part of that 
whole NATO alliance and how some NATO members feel about having 
tactical weapons and other things on their land. So I think it 
is a good time to look at this.
    And there are a few questions that I hope you will address 
today. How best do we reduce the dangers posed by nuclear 
weapons? And is it through implementing further reductions and 
how might that be? How do we decrease the risks of 
miscalculation if we do decide we will go lower? And adjusting 
alert postures and reducing the role of nuclear weapons out 
there: how do we do that? How can we--maybe we can even say we 
can get away from that, but how do we go about that?
    So we have engaged in a serious debate on this committee, 
and I am very, very thankful that the chairman and I on this 
committee get along so well and that all of our members really 
participate in so many ways in trying to ask the right 
questions and get to the right answers. Sometimes, you know, 
there is not just one right answer. So we are really thrilled 
about having you before us.
    There is still disagreement between us on many issues, and 
hopefully, you can shed some light on these very tough issues, 
so thank you very much. And I look forward to learning some 
more today and debating and continuing the debate, and I thank 
you.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 44.]
    Mr. Turner. Thank you.
    Now we turn to our three witnesses and ask each of them to 
summarize their written statements in about 5 minutes. We will 
then proceed to members' questions.
    The committee has received full written statements from 
each of the witnesses, and without objection, those statements 
will be made as part of record.
    Dr. Payne, I recognize you.

  STATEMENT OF DR. KEITH PAYNE, PROFESSOR AND HEAD, GRADUATE 
  DEPARTMENT OF DEFENSE AND STRATEGIC STUDIES, MISSOURI STATE 
                           UNIVERSITY

    Dr. Payne. Thank you, Chairman Turner and Ranking Member 
Sanchez, it is an honor to be here today.
    The Administration recently announced that it will 
undertake a new review of U.S. nuclear requirements, as you 
noted. This review ultimately should be linked to the key goals 
served by U.S. nuclear forces and the number and types of 
forces necessary to support those key goals. The five 
longstanding U.S. national goals pertinent in this regard are, 
one, the stable deterrence of attack; two, the assurance of 
allies via extended deterrence; three, the dissuasion of 
competitive challenges; four, defense in the event of war; and 
five, arms control. These five goals have been longstanding 
U.S. goals, in fact going back approximately five decades, and 
a bipartisan consensus has been behind these goals.
    The forces linked to these five goals overlap to some 
extent, but these goals also have their own individual, unique 
requirements that may be incompatible and therefore require 
tradeoffs.
    The Administration has expressed a commitment to effective 
capabilities for deterrence, assurance and limited defense. 
However, it also has explicitly elevated nonproliferation and 
nuclear disarmament to the top of the U.S. nuclear agenda and 
emphasized that it sees nonproliferation and nuclear 
disarmament as two sides of the same coin.
    This prioritization and linkage logically has led to 
concern that the goal of nuclear reductions will take 
precedence in the Administration's calculation of how much is 
enough. This concern was stoked by senior administration 
officials who stated specifically that this nuclear review is 
for the purpose of further U.S nuclear reductions and to 
facilitate the ``journey'' to nuclear zero.
    As described, this approach to reviewing U.S. nuclear 
requirements appears to start with the answer that further 
nuclear reductions are warranted and appropriate. The risk of 
this approach is that further reductions taken to advance the 
goal of nuclear zero may be out of step with the forces 
necessary to deter, assure, defend and dissuade now and into 
the future.
    The Administration's willingness to place top priority on 
arms reductions and subordinate these other goals may be seen 
in various policies and declarations. For example, Russia has a 
large numeric advantage in operational nuclear weapons. And the 
U.S. has important unmet goals with regard to reducing Russian 
nuclear forces. Nevertheless, the Administration's New START 
Treaty requires unilateral U.S. reductions in deployed forces. 
The Administration has decided to reduce U.S. tactical weapons 
unilaterally, and senior White House officials have stated 
explicitly that the United States may pursue additional 
unilateral reductions.
    There appear to be two competing dynamics within the Obama 
administration: One is committed to balancing the goals of arms 
control, extended deterrence, assurance and limited defense; 
the other, instead, appears to place top priority on nuclear 
reductions and steps toward nuclear zero.
    The fundamental question with regard to the 
Administration's nuclear review is, Which of these two 
different views of U.S. priorities and requirements will govern 
its calculation of how much is enough? Is there room for 
further reductions in U.S. deployed forces below New START 
levels simply because some now claim that a basic retaliatory 
deterrence threat could be maintained at 300, 500 or 1,000 
nuclear weapons? The answer must be no. The answer must be no 
to that question.
    Recall that U.S. forces serve multiple purposes. No 
estimate of how much is enough for deterrence alone is an 
adequate measure of U.S. strategic force requirements. In 
addition, deterrence and assurance requirements can shift 
rapidly across time and place, and therefore, our forces and 
our force posture need to be flexible and resilient to be able 
to adapt to shifting and unforeseen threats and circumstances. 
In short, we must sustain the number and diversity of our force 
posture necessary for this flexibility and resilience.
    Is there room in this regard for further reductions? 
Following comprehensive analysis, the former Commander of 
STRATCOM, General Chilton, recently concluded that the New 
START force levels would provide adequate force flexibility for 
deterrence under specific assumed conditions. But even with 
optimistic assumptions about the future, General Chilton 
apparently determined that New START numbers are compatible 
with the necessary flexibility, but no lower.
    Nothing has changed over the past few months to suggest 
that General Chilton's caution is no longer valid. To the 
contrary, some recent threat developments are troubling. I will 
just list one, and that is that Russia now identifies the 
United States and NATO as its greatest threat. It frequently 
resorts to crude nuclear threats to U.S. allies. And it places 
highest defense investment priority on the modernization of its 
nuclear forces, including a new heavy ICBM [intercontinental 
ballistic missile] capable of carrying 10 to 15 nuclear 
warheads each. This context hardly seems ripe for further 
reductions, particularly U.S. unilateral reductions that could 
degrade the flexibility and resilience of U.S. nuclear forces.
    Thank you.
    [The prepared statement of Dr. Payne can be found in the 
Appendix on page 46.]
    Mr. Turner. Dr. Halperin.

   STATEMENT OF DR. MORTON H. HALPERIN, SENIOR ADVISOR, OPEN 
                      SOCIETY FOUNDATIONS

    Dr. Halperin. Thank you, Mr. Chairman. It is a great 
pleasure to be here.
    I want to try to focus on what I think is the area of 
consensus, or potential consensus. But I do have to say that 
the fears that I think, Mr. Chairman, you have expressed and 
that the first witness expressed about where the Administration 
is going, are not--is not the same Administration that I talked 
to and listened to.
    I think, if anything, I have the opposite fears: that most 
of the people in the Administration have decided that the START 
Treaty and the Nuclear Posture Review was about all they could 
get done in the nuclear field, and that they had passed the 
task of even considering further reductions to the next 
Administration. I think that is as likely to be the outcome of 
these discussions as the kinds of concerns that you have 
expressed.
    My hope is that we will not begin by concluding either that 
further reductions are possible now and desirable, but also 
that we will not conclude that because there are a number of 
tasks for nuclear weapons and the Russians may occasionally say 
something that alarms people, that there is no possibility that 
we could go to lower numbers. I think we ought to treat it as 
an open question. I want to suggest some items that I think 
should be part of a consensus about how we should consider 
that.
    First of all, I want to emphasize the importance of the 
agreement on modernization. And Mr. Chairman, I had the 
opportunity to hear you speak the other day, and I agree with 
you that we need to change the budgeting process. As long as 
you trade off nuclear modernization with water projects, we are 
going to lose, especially in the current climate.
    I was the lone voice on the Nuclear Posture Commission 
urging to move the entire nuclear weapons process into the 
Defense department. I was for that when I was in the Government 
when the Atomic Energy Commission was abolished. I didn't 
understand then why it wasn't done, and I don't understand now 
why it isn't done. But I think anybody who studies the Congress 
knows that you can't move it to the subcommittee where it 
belongs unless you first move it in the Administration to where 
it belongs. And I think Congress ought to think about doing 
that.
    The second area in which I think we should have a consensus 
is that our targeting should continue to be against military 
targets and not counter-value targets. It is illegal, it is 
immoral, it is counterproductive to base your deterrent on what 
is sometimes called ``minimum deterrence'' and the notion that 
you just target cities. It is, of course, the case that what we 
target will end up killing vast numbers of people, but we need 
to continue to ask ourselves the question, What military 
targets do we need to be able to hold at risk to provide 
assurance, to provide deterrence, and to continue to make clear 
to the military that the target set must be military targets 
and not cities?
    Third, I hope we can get a consensus to maintain the triad, 
even as we go to lower levels. Now if you can imagine a world 
in which we are in several hundreds, we may have to reconsider 
that. But I share your view, and the Commission very much 
expressed the review, that zero is not going to come any time 
soon. And moreover, in my view, it is not a good guide to where 
we should go now. To say, as every President--as you noted 
Ronald Reagan said, every President I think, but the last one 
said we would like a world without nuclear weapons, doesn't 
mean that that's guidance for what we should do today, tomorrow 
or the next 10 years. I believe it is not at all such guidance. 
We ought to ask ourselves the question of where we want to go 
now. And in my view, that includes saying we need to keep the 
triad for the foreseeable future.
    I think, frankly, a lot of the objections to going lower 
are really from people who fear that the leg of triad that they 
most value, either because of a strategic analysis or, in some 
rare case, because the item is made in their district or in 
their state, leads people to object to going lower because of 
that fear. And I think, both from a strategic point of view, it 
makes sense to keep a triad, and from a political point of 
view, I think it helps us have a discussion that is not 
distorted by those kinds of concerns.
    Finally, as I said, I think we need an agreement that we 
should not go--we should not have a predetermined answer to the 
question, Can we go lower? We should not start out knowing we 
can go lower or that we should not go lower.
    Mr. Chairman, my clock is not working, so I don't know 
whether I have used up my time or not.
    Mr. Turner. You are doing well.
    Dr. Halperin. So I do think that--and I would hope we get 
an agreement with the Administration that we are not going to 
read an announcement one day that they have gone beyond the 
START levels. I think that would be a fundamental mistake. It 
would break the possibility of a consensus.
    On the other side, I would hope people would hold off 
announcing that they know before we do the study that we cannot 
go to lower levels.
    I do think we ought to consider one change in the existing 
guidance as part of the study. There is, as you know, a current 
requirement for a prompt launch capability, even though there 
is also a requirement that we not rely on prompt launch for 
deterrence. I do not think we need a prompt launch capability, 
but again, I would not make that an assumption of the study, 
but neither do I think we should make it an assumption that we 
do need such a prompt launch capability. I think the military 
should be free to look at the question of what we need for all 
the purposes that Keith has laid out, but without an assumption 
that we need a prompt launch capability.
    Now that does not mean that the military should be told to 
de-alert the forces. I think, for lots of reasons I would be 
happy to go into, that is a fundamental misunderstanding, that 
would be a fundamental mistake. But that is different than a 
requirement that we have a substantial prompt launch 
capability.
    Finally, I want to say about forward-deployed nuclear 
weapons, because I think this is an area in which I do disagree 
with you, Mr. Chairman. I think the NATO alliance will 
survive----
    Mr. Turner. I am sorry, your time has expired. I am just 
kidding, go ahead.
    Dr. Halperin. I think the NATO alliance will survive, even 
if we with take our nuclear weapons out of Europe. It will 
continue to be a nuclear alliance. It will continue to rely, as 
it always has, on the credibility of our strategic deterrent to 
prevent our potential adversaries in Europe from using nuclear 
weapons.
    I do think it has been as divisive as it is cohesive. For 
every European that desperately wants to us keep the weapons 
there, there is a European that wants us to take them out. My 
view has always been, whatever view you have on that subject, 
you can travel through Europe and find people who agree with 
you in every country and at every level, but somebody who has a 
different view goes and comes back and talks to a different set 
of people. So I think there is no easy answer to this question. 
Just because we are for NATO cohesion doesn't mean the answer 
is ``don't take them out.''
    My own view is that it is time to further consolidate them, 
that they should be moved to two military bases from whatever 
number they are now, that those should be American military 
bases, and that we should not be pressuring our allies to spend 
the very small amounts that they spend on defense to buy new 
nuclear-capable aircraft or to adjust the aircraft that they do 
buy so that they are nuclear-capable. I think it is extremely 
unlikely they will ever mount those weapons. And as we learned 
again in Libya, we do actually fight sometimes. And I think it 
is more important for our allies to be able to fight. Thank 
you.
    [The prepared statement of Dr. Halperin can be found in the 
Appendix on page 55.]
    Mr. Turner. Mr. Miller, as a courtesy, we will not start 
the clock on you, also.
    And Dr. Payne, as we give you responses to questions, we 
will let you catch up.
    This has been fascinating, though, and I did want to give 
the flexibility.
    Mr. Miller.

   STATEMENT OF THE HON. FRANKLIN C. MILLER, PRINCIPAL, THE 
                        SCOWCROFT GROUP

    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Chairman, Congresswoman Sanchez, it is an honor to be 
here.
    Let me begin, because this discussion is about beyond New 
START, by saying I did support the New START Treaty. But I did 
not support it because it reduced weapons. In fact, it allows 
more weapons than the 2002 Bush-Putin treaty, but we won't go 
into that now.
    I supported it because it reopened the inspections regime 
but, more importantly, because the Administration committed as 
part of the ratification process to modernize our strategic 
forces. And I am concerned now that I do not see that promised 
modernization.
    The Administration owes the Congress and it owes the 
American people and it owes those of us who fought for New 
START on the promise of modernization some transparency into 
what it intends to do in modernizing the bomber and ICBM legs 
of the triad. I would note that we just lost an ICBM today. 
There was a failed test launch out of Vandenberg, which tells 
you something about the dangers of an aging force.
    With respect to the only leg of the triad to which money 
has been committed, the Ohio Program, we now read stories that 
this program is in question, that perhaps a modified Virginia-
class attack submarine could be used, which is a complete 
nonstarter. It is very worrisome; the Virginia-class submarine 
modification could not carry the Trident II D-5 [Fleet 
Ballistic Missile], which is at the very heart of our deterrent 
program.
    Additionally, the other idea of extending the Ohio 
replacement program for another several years so that we could 
have fewer boats and more tubes is similarly a huge mistake. It 
will be important for to us have more SSBNs [Ballistic Missile 
Submarine], not fewer SSBNs. I would note, in an alliance 
context, that delaying the Ohio replacement program could 
imperil--literally imperil--the U.K.'s SSBN replacement 
program. The U.S. Navy and the Royal Navy have a joint program 
to build a common missile compartment. The U.K. must absolutely 
begin deploying new SSBNs in the mid- to late 2020s, and a 
delay in our own program could pose an unacceptable risk to the 
U.K. deterrent, which, as members are aware, is entirely SSBN-
based.
    I am also concerned, as you have pointed out, Mr. Chairman, 
that the Administration is, before the ink is dry on New START, 
talking about further reductions. Why do we need further 
reductions? The Administration owes us--that is, the Congress 
and the American people--an explanation as to how additional 
reductions are going to create enhanced stability. What we want 
is a safer world. Reduced nuclear weapons levels may or may not 
contribute to that. We need to know what the Administration 
intends to do.
    And the notion that this is a step toward the nuclear-free 
world is not an acceptable answer, because the Prague speech 
and the vision of a world free of nuclear weapons has, to put 
it mildly, not had great resonance in the capitals of the other 
nuclear weapon states. Not in Paris. Certainly not in Moscow 
and Beijing, where nuclear weapons are central to their 
security policies. Not in Islamabad or Tel Aviv or New Delhi or 
Pyongyang, or in Tehran, for that matter.
    And I find it especially troubling, as you pointed out, Mr. 
Chairman, the National Security Advisor's statement that we are 
going to examine the target base in order to have additional 
reductions. I am very familiar with the target base; I was in 
charge of U.S. nuclear targeting for 16 years. I have written 
two Presidential Directives and at least five Secretary of 
Defense Nuclear Weapons Employment Plan Policies.
    Deterrence since the late 1970s has focused on determining 
what a potential aggressor leadership values, and then holding 
those assets at risk. It is not about what we value; it is 
about what they value. Traditionally this has included military 
forces, military and political command and control, and the 
industrial potential to sustain war. We shouldn't hold at risk 
assets a potential aggressor leadership doesn't value.
    But similarly, we shouldn't give up the opportunity and the 
capability to hold at risk assets which are valued. And you 
can't deter by holding just a portion of a potential 
aggressor's value structure at risk. You must say to a 
potential aggressor, if you attack us, we will destroy that 
which you counted on to rule the post-war world.
    This value structure will vary from aggressor to aggressor 
and even from one set of leaders to a successor set within a 
particular nation, but I think our current policy accounts for 
that.
    I am sure there are efficiencies to be found in the target 
base, but scrubbing that base for the purpose of reducing our 
weapons is simply not good policy.
    The call for adjusting alert rates perplexes me. The fear 
of accidental nuclear war was dealt with in the mid-1990s by 
putting broad ocean area target sets in our missiles. I am 
happy to engage in that debate later on.
    With respect to NATO, let me simply say the following: The 
Strategic Concept just agreed by the Alliance last November 
calls for widespread basing in nuclear weapons in Europe. Some 
of our allies nevertheless are pursuing a cynical, beggar-thy-
neighbor approach to the common good. I view this as a craven 
moral failure by those who once sought collective security and 
even asked the United States to put our very existence as a 
nation on the line to deter an attack on them in the 1950s, 
1960s, 1970s, 1980s and 1990s. But now, feeling safer and more 
secure, they would deny to the new members of the Alliance the 
very security they once sought.
    At the same time, it is extraordinarily patronizing, Mr. 
Chairman, for Americans, who brought these people into the 
Alliance, to say to the new members of NATO that, contrary to 
their fears, contrary to the saber-rattling threats that they 
have heard and Dr. Payne described, that they really don't have 
to worry about Russia--not their problem--and that our forces 
based on the United States can handle the military mission of 
deterring Russia.
    It is not about a military mission. It is as you have 
indicated, Mr. Chairman, a political mission, a mission of 
reassurance. And as long as U.S. allies believe that those 
weapons need to be there, we need to make sure that we provide 
that security.
    I think the Russian tactical nuclear arsenal is grossly 
obscene. I think it is inconsistent with the 21st century. I 
think we ought to negotiate to reduce it, but not at the cost 
of withdrawing all of our weapons from Europe as long as our 
allies want them.
    The reason the Russians want to us withdraw all of our 
weapons from Europe is that they know precisely that that will 
really undercut allied confidence in the United States, and 
that will deeply hurt the NATO alliance.
    Mr. Chairman, let me end at this point and go to your 
questions. Thank you.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 62.]
    Mr. Turner. I am going to go to Mr. Lamborn first, but 
before I do, Mr. Miller, I do have to correct you on one 
statement that you made that maybe will be helpful for the 
other two panelists: There is no Ohio replacement program. 
Being a native of Ohio, I think it is correctly referred to as 
the Ohio-class submarine replacement program. I just want to 
make it clear there is no Ohio----
    Mr. Miller. I stand corrected.
    Mr. Turner. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Before I say anything else, I want to congratulate the 
ranking member on that beautiful wedding ring on her hand.
    This first question is for all of you. Earlier this year, 
NNSA [National Nuclear Security Administration] Administrator 
Tom D'Agostino testified before this subcommittee that the new 
plutonium and uranium facilities need to be up and running 
before we make substantial cuts to the nondeployed hedge force. 
But when the House tried to slow down cuts to the nondeployed 
hedge force until these new facilities were ready, the 
Administration issued a veto threat. And now we hear that the 
Administration is looking to negotiate a future agreement to 
cut both our nondeployed and deployed weapons. Please talk to 
us about why we should keep a substantial nondeployed reserve 
force as a hedge and how modernizing our infrastructure, as I 
referred to earlier, is essential before we could make any 
possible cuts to the nondeployed stockpile in the future?
    Under current guidance, are there any risks in making 
further cuts to our hedge if these new uranium and plutonium 
facilities are not complete?
    I would love to hear from all three of you.
    Dr. Payne. I will be happy to start. The first question, as 
I understand it, is why have a hedge, or a large hedge, as part 
of your stockpile? And the policy notion--the policy rationale 
for that is, in response to the fact that deterrence 
requirements, assurance requirements, all of those goals that 
these forces are intended to support, the context can change 
dramatically for technical reasons or policy reasons, or both.
    And therefore, having a hedge of forces that could be 
reintegrated into the force as necessary is very important to 
have the flexibility and resilience of a force structure to be 
able to accommodate dramatic changes. It was very difficult to 
build these systems, and they take a long time to build.
    Therefore, you don't want to have to change your force 
structure very, very rapidly, because change can come rapidly, 
and you need to have the forces in being, so to speak, so that 
you can respond to rapid changes, because you know you are not 
going to be able to build those forces very rapidly in response 
to rapid changes.
    That, essentially, is the rationale for maintaining a 
hedge; it is to protect our ability to deter and assure in the 
future in a world that can change dramatically, in some cases, 
even overnight.
    How does modernization help reduce the need for that 
standing hedge? I think that was the second part of the 
question. Well, modernization of our infrastructure allows us 
to respond more rapidly and in a more agile way to these types 
of changes. And the greater your ability to respond in an agile 
way with your force infrastructure--the greater your ability to 
do that, the less you need standing forces.
    So we have suggested that there is this inverse correlation 
between your ability to move agilely and quickly with your 
infrastructure, and your need for a large standing hedge. And 
that is why, I believe, Director D'Agostino said we should not 
move to reduce the hedge forces until we have this modernized 
infrastructure that would allow us to provide new forces, in 
the instance that there are very dramatic and negative changes, 
either political or technical, coming in the future that happen 
quickly.
    Dr. Halperin. I want to take the opportunity to agree with 
everything that Keith just said, I don't have many 
opportunities do that and I didn't want to pass one. I agree 
with all of that. The only other point I would make is, it 
takes a long time to build nuclear weapons, but it also takes a 
long time to destroy them. As I understand it, we have a large 
stockpile of weapons awaiting destruction.
    And therefore, there isn't an opportunity to destroy more 
weapons now. We can change the label on some of the existing 
stockpile if we wanted to from hedge force to a force awaiting 
destruction, but almost nothing different would happen but the 
label on the force.
    So I don't think it is a real argument; we can't really 
destroy many more, more quickly. And there is no particular 
reason to. And I think, given the concerns and given the 
agreement about modernization, we should take to the bank the 
agreement that when we have these new facilities, we will be 
able to reduce the force and, at that time, have a serious 
discussion about how much we can reduce it and how quickly we 
can reduce it.
    Mr. Miller. Let me associate myself with what my colleagues 
have said. I think this is very simple. This is a case of 
promises made, and then assumptions and ground rules being 
changed.
    During the Cold War, we had active warhead production 
lines, and we were able to test our nuclear weapons. Neither is 
the case anymore. We don't have active warhead production 
lines, and we are abiding by our signature on the CTBT 
[Comprehensive Nuclear Test-Ban Treaty]; we are not testing.
    The only way we can replace a failed weapon in the arsenal 
is to take one out of storage, and that is the so-called hedge. 
The Administration said it was prepared to reduce the size of 
that hedge force, that warhead replacement force, when we were 
able to start building new warheads.
    I would point out by the way that the Russians have been 
producing new warheads on a 10-year cycle since the beginning 
of the Cold War.
    So the deal was, we have the ability to produce new 
warheads to replace old ones or failed ones in the stockpile, 
and then you start getting rid of the hedge.
    And now the idea is, oh, we are going to start getting rid 
of the hedge, but we are not going to be able to produce the 
new warheads. That is a complete change in assumptions, and it 
is a complete change in the logic behind the original 
proposition, even of the CTBT.
    So I agree with my colleagues.
    Mr. Lamborn. And you feel that that would be a dangerous 
thing to do.
    Mr. Miller. Yes.
    Mr. Lamborn. Thank you. And on de-alerting, you made 
reference to it earlier, how might de-alerting some of our 
forces--what would that do to our strategic stability and 
crisis response? And can we expect Russia to do any de-
alerting? And has anything changed since the 2010 Nuclear 
Posture Review, which says that we should keep current alert 
statuses; has anything changed since then so that we can de-
alert now? Once again, I would love to hear from all three of 
you.
    Mr. Miller. I will start. First of all, nothing has 
changed.
    Second of all, to set the context, we are not at Cold War 
levels of alert. We have fewer submarines at sea. There are 
different alert levels. The ICBM force is still in a position 
where it could launch if necessary on a short notice, but the 
whole question of de-alerting was to avoid accidental war. And 
it was for that reason in the mid-1990s that these broad ocean 
area targets were put into the guidance systems on a day-to-day 
basis.
    I have been listening to calls for de-alerting for 20 
years. We have studied those to death. There is no way to 
verifiably de-alert forces on both sides, and it raises the 
specter that you have suggested, which is if you do some de-
alerting, either one side won't have de-alerted, or there will 
be a race to re-alert in a crisis.
    I contributed a chapter to the Strategic Posture Commission 
Annex. I am happy to give that to the committee.
    But the real question is, why further de-alerting? What are 
we trying it achieve? We are not going to get the Russian ICBM 
force off of alert, even if he we took all of our ICBMs off of 
alert. And if you think that the Russians have a hair-trigger 
and you take some of their forces down, then the rest are on a 
tighter hair-trigger. So I don't understand the logic that says 
this is a good thing to do. And I understand the risks that are 
attendant with it, the whole rearming re-alerting question, so 
I think it is a terrible idea that we hear about a lot, but I 
can't find any logic to it.
    Mr. Lamborn. Dr. Halperin.
    Dr. Halperin. I actually agree that. My view is that de-
alerting is very dangerous, because it implies that in a 
crisis, you re-alert, and that is the last thing you want to do 
is have both sides looking like they are moving toward they are 
about to launch a strike and then you get what Tom Schelling 
many years ago called the reciprocal fear of surprise attack, 
and you make war more likely.
    You want a nuclear posture, in my view, that you don't 
change, even if you think war is more likely.
    The one area where I think we need a debate is the one I 
have suggested, which is the question of a requirement for a 
prompt launch capability. I would like us to be in a situation 
where the military understands that they don't have an option 
to come to the President and say, ``Mr. President, we think the 
Russian missiles are on the way, and we looked at our force 
again, and we are not confident they can survive a Russian 
attack; therefore, we want you to authorize a strike before the 
Russian missiles land.''
    I want to President to say to the military now, ``I am 
going have an alert force, and I am going to have a secure 
force. I am not going to be pushed into launching because 
somebody thinks missiles are really on the way.'' And if that 
means we have to spend more money on command and control and 
more money on how to get the President out of Washington 
quickly or figure out who is in charge if we can't get him out, 
we ought do that.
    But we ought not to rest our deterrent on the belief that 
we can go to the President and say, ``Fire before the Russian 
missiles land.'' That does not mean we should change the alert 
posture; it does not mean we should do anything called de-
alerting, but it does mean, in my view, that we ought to make 
it clear that a prompt launch capability is not what we rely on 
to deter a Russian attack.
    Dr. Payne. I am in a position of agreeing, again, with both 
of my colleagues' points.
    Just to, in a sense, restate the point that Mort made, 
which he made a long time ago--as a matter of fact, he was one 
of the early masters of this particular subject--and that is a 
re-alerting race in a crisis would be extremely dangerous, and 
it is what we should avoid. Taking our forces off alert or 
degrading alert would lead us to the potential for a re-
alerting race in a crisis.
    We should do nothing like that because we want postures 
where nothing requires Presidents to make hasty decisions. Now 
what we do want to do is protect and expand the decisionmaking 
time for the U.S. and Russian Presidents. And in fact, that is 
what the Congressional Strategic Posture Commission said on 
this subject. It said the notion of de-alerting, that the idea 
that our forces are on a hair-trigger alert is simply 
erroneous. That is how the Commission characterized that 
particular point. And it said ``The alert postures of both 
countries are in fact highly stable.'' I believe we were right 
then, and I believe that's still accurate.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I am sorry that took a little bit longer.
    I yield back. I would ask unanimous consent that the report 
Mr. Miller referred to would be made a part of the record.
    Mr. Turner. Excellent. Without objection.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Turner. Excellent answers and great discussion. I 
really appreciate, as I said when we opened, both your 
expertise and your willingness to share with us.
    Ms. Sanchez has requested that I go to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I thank the Ranking Member for yielding.
    And I want to thank our panel for being here on this all-
important topic. Let me start with this, how would you rank or 
compare our nuclear deterrent to other nuclear weapons powers, 
including Russia and China? And how does our nuclear deterrent 
compare to other nuclear powers in terms of numbers?
    Mr. Miller. We have approximate parity with Russia in 
strategic forces. The Russians have an arsenal of nonstrategic 
or tactical weapons which is 10 to 15 times ours. Both United 
States and Russia have significantly more strategic weapons 
than do China or France or the United Kingdom. Indeed, with the 
growth of Pakistan's arsenal, it is rapidly approaching the 
same level as the United Kingdom, but the short answer is the 
same as Russia in strategic; deep imbalance with Russia in 
nonstrategic; more than China; more than the rest.
    Dr. Halperin. My understanding is that we do have a 
substantial advantage in numbers over the Russians in 
nondeployed strategic weapons which may, in fact, make the 
overall number of weapons that each side has much closer than 
we normally discuss.
    I also believe that the United States' arsenal is much more 
sophisticated and much more effective and much more reliable 
than the Russian arsenal. And we continue to make improvements 
through the activities of our laboratories, which I think are 
second to none in these areas.
    So I do not think there is any basis for concern that, 
somehow, some other nuclear power is going to overtake us in 
our capabilities.
    Mr. Langevin. And we have heard the criticism that the 
Russians will have to reduce their numbers of warheads and 
delivery vehicles to a much lesser extent than the United 
States. Are all delivery vehicles that the United States is 
dismantling or shifting to nondeployed status currently 
operational, or were some of these phantom delivery vehicles 
not being used yet still counted as deployed?
    Dr. Payne. To meet the New START ceiling on launchers, 
which I think is the metric you are referring to, the United 
States will have to reduce approximately 180 launchers to get 
to the New START ceiling on deployed launchers of 700. The 
Russians would actually have to build up by approximately 180 
launchers to get that ceiling. So the context truly is with New 
START ceiling on launchers, the United States will have to 
reduce by approximately 25 percent.
    Mr. Langevin. Define that term ``launcher.''
    Dr. Payne. It is an ICBM, an operational in-service ICBM, 
SLBM [submarine-launched ballistic missile] or bomber. So to 
meet those ceilings, the United States will have to reduce by 
approximately 25 percent its number of deployed launchers.
    Mr. Langevin. Say that part again.
    Dr. Payne. Approximately 25 percent its number of deployed 
launchers. Russia would have to increase its number of deployed 
launchers by approximately 35 percent to reach the New START 
ceilings; that is the context we are in now.
    Mr. Langevin. So given the perception of asymmetry in 
implementation obligations, what is the value of the New START 
limits and arms control in general?
    Dr. Halperin. I think, as Frank suggested, the most 
important was to reestablish the inspection regime that we had 
before, and to reestablish a legally binding agreement between 
Russia and the United States on its nuclear forces, which sets 
a ceiling for both countries that each other can count on and 
which may provide the basis for agreed further reductions.
    I am, in fact, very dubious that we will at any time soon 
be able to negotiate another comprehensive treaty, but I think 
it at least provides a framework and a basis for that. It also 
was, I think, part of building a national consensus on the need 
to modernize the forces and provided a context in which, I 
think, people otherwise were worried that modernization might 
lead to a new arms race, that you had an agreed force level 
which would prevent that from happening.
    I do think we ought to try to find a way, if we can, to 
persuade the Russians that they really should not build a new 
large multi-warhead land-based ballistic missile. That is about 
the least stable thing that either side can do, and I think it 
is useful to try to think about ways, if there are any, to talk 
them out of that.
    Mr. Langevin. So how does missile defense affect the 
numbers level and assuring confidence that we can either 
prevent or stop a nuclear attack, and how does this affect the 
limits that have been established?
    Dr. Halperin. Mr. Chairman, while we are putting things in 
the record, I would ask permission to put in the record the 
chapter on missile defense from the nuclear commission report, 
because I think it is an extraordinary document.
    [The information referred to can be found in the Appendix 
on page 82.]
    Dr. Halperin. You had in that Commission people who have 
been fighting with each other about missile defense for 50 
years. Many of us, the same people--I mean Johnny Foster and I 
have had literally had this argument for 50 years. And yet we 
agreed on that document and what I think that document says; it 
is unrealistic to think that you can build ballistic missile 
defense against a large, sophisticated nuclear force--read: the 
Russian force and the American force, with a question mark 
about the Chinese, but certainly those, too.
    And then on the other hand it is useful to develop active 
missile defenses to meet regional and smaller threats, that 
that is not only not destabilizing, but it is in our interest, 
and that we have an interest in trying to persuade the Russians 
that the defenses that we build against small nuclear threats 
are not directed at them, and I think we all agreed on that and 
I think that is the right way to think about ballistic 
missiles.
    Mr. Langevin. Clearly, though, having a robust missile 
defense system undermines an aggressor's confidence in a 
successful first strike.
    Dr. Halperin. No, I think it is the reverse, absolutely the 
reverse, because nobody believes a ballistic missile defense 
can work against the first strike from a sophisticated country.
    Mr. Langevin. But the aggressor could never be confident of 
which missiles were going to survive and get through, and which 
missiles are going to be taken out.
    Dr. Halperin. Right, but he can hope to come to rely on the 
fact that he has a ballistic missile defense to destroy the 
incoming missiles against his cities. So I believe that if both 
sides, if we and the Russians both had a robust ballistic 
missile defense, that that would increase instability and not 
stability, which is why I have been for many years and continue 
to be a strong proponent of the ABM [Anti-Ballistic Missile] 
Treaty. I think it was a mistake to walk away from it, but that 
is done.
    And I think it would be a mistake, as the Commission said, 
for either the United States or Russia to try to build a 
ballistic missile defense against the other.
    Mr. Miller. If I could just jump in. If you have a sizeable 
strategic arsenal--as with the United States and Russia, 
Congressman--you can, through your targeting policies, deal 
with a limited ballistic missile defense, that is really not 
very difficult. I would carry this discussion, though, just one 
step further, and that is to say that because we are working 
with our NATO allies to build a phased adaptive approach in 
NATO, some believe that the NATO ballistic missile defenses 
obviate the need to have a forward-based nuclear presence, and 
that is not what our allies think.
    And if the Alliance is all about defending all of NATO, as 
long as the allies believe that we need to raise the threshold 
of aggression by threatening unacceptable retaliation, the 
missile defenses in Europe would be a complement to our NATO 
nuclear deterrent, but they cannot be a substitute for those 
forward-based weapons.
    Dr. Halperin. I would just say they can't be a substitute 
for an effective NATO nuclear defense, but I do not believe 
that that requires a forward-based force. I believe the 
forward-based force, even as it exists now, plays an 
insignificant role in the confidence of our allies in our 
nuclear deterrent and in the confidence that the Russians have 
that our nuclear deterrent protects not only us but our allies 
as well.
    Mr. Miller. But that is not what the NATO concept said in 
November. The NATO concept is very clear about the need for 
nuclear forces, and that is a judgment of the 28 heads of 
government of the alliance.
    Dr. Payne. Might I just add on this point, I think it is 
important to recognize that the Russian defense professionals, 
who are very cognizant of missile defense and the interaction 
of offense and defense, frequently write--in fact, almost every 
article that they publish on this subject says that they 
recognize and acknowledge that the type of missile defenses 
that the United States is in the process of deploying are not 
going to be a threat to their strategic retaliatory capability. 
They say, ``We understand that; others don't, but we understand 
that'' and that, in fact, some of the articles by these folks 
will say this is a political issue; it is not a military 
technical issue.
    Mr. Langevin. Thank you very much.
    My time is expired, but I want to thank the gentlemen for 
your testimony here today.
    I yield back.
    Mr. Turner. Thank you, Mr. Langevin.
    Well, gentlemen, thank you again so much. This has been a 
great discussion, and I really appreciate the opportunity to 
hear from each of you on these issues, and I certainly 
celebrate the areas where there has been agreement.
    But for all of us who are engaged in this discussion and 
dialogue, I also want to thank you for the clarity in which you 
describe the issues, because in addition to your conclusions, 
you give us some backdrop as to how the decisions are made and 
the policy issues that arise from these challenges. And with 
that, I really thank you.
    Dr. Halperin, I hope that you are correct in your 
assessment of this Administration's direction.
    Dr. Halperin. I hope I am wrong.
    Mr. Turner. That is great.
    You know, between us, you know, our concern obviously is 
that we, because of the areas that we have identified as 
concerns, we have placed in the National Defense Authorization 
Act some specific language that would, you know, provide some 
boundaries, in part, to get assurances from the Administration 
that they had no intention of going beyond those boundaries. 
And instead of getting those assurances, which you are 
confident of, we actually got veto threats.
    Dr. Halperin. Yeah--well, Mr. Chairman, if I may, I suspect 
that the veto threats came from the fact that the previous 
Administration educated all of us about the importance of 
Presidential prerogatives and that the veto threats--I haven't 
seen them, but my guess is that they are about Congress 
interfering in what the executive branch thinks of as its 
prerogative, not about the substance of whether they are 
going----
    Mr. Turner. They actually have been a little bit of both, 
and I certainly understand the prerogative issue and would have 
similarly expected some objection there. But I did expect that 
the Administration might come forward, as you have, and said 
that, you know, their lack of interest in going beyond those 
boundaries. So we give, everybody, again, that ability to come 
back and have some bipartisan support for what is going on 
because there is a great deal of concern.
    And I would like to go to one of the areas where you said 
we did have some disagreement because I think there is probably 
still a large area in which we do have agreement with respect 
to NATO and our forward-deployed nuclear weapons.
    We had William Perry, former Secretary of Defense and Chair 
of the Strategic Posture Commission, here, and I asked him, the 
issue of, you know, our concern that there would be unilateral 
withdrawal of our weapons from Europe without a corresponding 
concession from Russia in their tactical nukes. As you are 
aware, during the START negotiations, the Senate was very 
adamant that the Administration must look now to not reductions 
in U.S. weapons but look to tactical nuclear weapon reductions 
on the part of Russia. And Secretary Perry said he thought that 
would be a bad idea to have unilateral withdrawal without 
corresponding concessions from the Russians.
    I would--and I am going to, of course, ask all of our 
members of the panel this, but I would suspect that we probably 
have an area of agreement between you, me and Secretary Perry, 
that the value of these weapons as a bargaining opportunity 
with respect to Russian tactical nukes, should not be 
dismissed.
    Once we go through a process of, withdrawal reductions, we 
lose an opportunity because we don't have many other things, 
unless this Administration is willing to go past nuclear 
weapons in bargaining to gain those concessions.
    And I would like your thoughts. I am assuming--perhaps you 
could give us your insight as to whether or not you agree with 
Secretary Perry that it is a bad idea.
    Dr. Halperin. I agree that--well, I am not sure I agree 
with him because I have a view that is different.
    I do not think we should be willing to trade our withdrawal 
of our nuclear weapons from Europe for some reduction, even a 
substantial reduction, in Russian tactical nuclear weapons 
because if it is the case--which I do not believe, but my 
colleagues do and many people do--that the credibility of the 
American nuclear deterrent for our NATO allies depends on the 
presence of nuclear weapons in Europe, that will not change if 
the Russians cut their tactical nuclear arsenal by two-thirds, 
or even eliminate it because they will still have their 
strategic weapons, which, while they can't have intermediate-
range missiles, they can find a way to target them on the NATO 
countries.
    So I think we have to debate this issue on its merits. I 
understand that the alliance has said that. The alliance has 
been saying that for many, many years. It said that about 
6,500. We are now down to a number, which I think none of us 
are allowed to say, but we all agree is lower substantially 
lower than 6,500.
    And the same things that we were told would happen now if 
we go to zero. I was in the Pentagon. We were told, ``If do you 
that, if you freeze at 6,500, all these same terrible things 
will happen; nobody will believe that the deterrent is 
credible.'' And of course, the Russians were then in Berlin, so 
it was a different situation.
    My view is we ought to say to our NATO allies what our 
military has said publicly: We do not believe those weapons are 
necessary for a credible deterrent. But if you believe they 
are, we will leave them there. But we have to deploy them in a 
way that we are confident they are not subject to sabotage.
    One of the issues that I think we need to worry about, and 
that the military certainly worries about is that, as has 
happened in the past, people end up on those bases and hold up 
a nuclear weapon and then you get a demand to take them out in 
a way that would be counterproductive to the Alliance. So I am 
not for taking them out because the United States decides.
    I am for saying what our military has said: We don't think 
we need them for a deterrent, but if you do, we will leave them 
there. And if we conclude that, we should not bargain them away 
for any amount of reduction in the Russian----
    Mr. Turner. Well, as I turn to Mr. Miller and Dr. Payne, I 
will expand the question based on what Dr. Halperin has 
answered. In addition to the bargaining chip aspect of my 
question, we know that the Nuclear Posture Review states that 
in Europe, ``The presence of U.S. nuclear weapons--combined 
with NATO's unique nuclear sharing arrangements under which 
non-nuclear members participate . . . contribute[s] to Alliance 
cohesion and provide[s] reassurance to allies and partners who 
feel exposed to regional threats.'' If you might comment, then, 
on both issues. I will go first to Dr. Payne.
    Dr. Payne. Let me, I might mention a couple of points with 
regards to the unilateral reductions.
    We saw unilateral reductions by the United States in both 
deployed launchers and warheads.
    Mr. Turner. Dr. Payne, could you move the microphone a 
little more in front of your----
    Dr. Payne. Yes. The New START treaty mandates U.S. 
unilateral reductions in the number of deployed launchers and 
warheads, and we will implement that. The United States has 
decided to unilaterally reduce the US number of tactical 
nuclear weapons with the taking down of the TLAM-N [Tomahawk 
Land Attack Missile-Nuclear] system, and the Administration has 
announced the possibility of further unilateral reductions.
    These are the kinds of statements that I am concerned 
about, and that is what I would lay on the table with regard to 
Mort's confidence; these are some of the reasons why I am 
concerned.
    The problem with unilateral reductions isn't that 
unilateral reductions are necessarily bad, but if you have 
unmet negotiating goals, such as the United States has, 
engaging in unilateral reductions simply limits your ability to 
ever get to where you want to go in the area of arms control.
    So there is a strange juxtaposition where we have said as a 
country, we want to be able to find reductions in the Russian 
tactical nuclear arsenal because it is so large, and yet we 
engage in unilateral reductions at the strategic level. We have 
engaged in unilateral reductions at the tactical nuclear level, 
and now we are talking about further unilateral reductions.
    Those two positions don't make sense. If we have unmet 
negotiating goals, engaging in this long stream of unilateral 
reductions, at least in my mind, doesn't make any sense.
    And, in a sense, I find Mort's comment reassuring because 
what I understood Mort to have said is, if the allies want U.S. 
nuclear weapons to stay in NATO for their assurance, then they 
should stay. That is, in fact, what the Commission said, the 
Strategic Posture Commission, and that strikes me as a fully 
well-thought-out position.
    Mr. Turner. For the record, Dr. Halperin nodded in the 
affirmative.
    Dr. Halperin. Yes.
    Dr. Payne. If--and one of the processes that the Commission 
went through was we heard from a large number of foreign 
representatives. And I--without breaking any confidences, I can 
assure you that representatives from Central European and 
Eastern European allies who are now in NATO were strongly 
opposed to the notion of the U.S. essentially withdrawing its 
nuclear weapons from the continent.
    In fact, they made the point that one of the reasons they 
wanted to be NATO allies was because they came under the U.S. 
nuclear umbrella, and those nuclear weapons were in Europe.
    Mr. Turner. Mr. Miller.
    Mr. Miller. I agree with that.
    The first point I would make is this is why most of the new 
allies joined the alliance, to be under the U.S. nuclear 
umbrella.
    The presence of those weapons is highly symbolic. The new 
allies believe that that represents the U.S. commitment to 
their defense. The threat is not really just Russian tactical 
nuclear weapons; it is Russian local superiority in Central 
Europe and in the Baltics.
    We hear a lot about NATO's superiority. If you lived in the 
Baltics or if you lived in the Slovak Republic or Czech 
Republic, you are not thinking that NATO has conventional 
superiority. And that is why they want the presence of U.S. 
nuclear weapons there. And that is why they have told us that, 
and that is why the Alliance in its policy statement of last 
November said that we will retain weapons there.
    The notion that we can just do it all by strategic systems 
from the United States is something we have tried before and 
failed.
    In the late 1970s, when the Soviets were deploying the SS-
20 missile, the Pentagon's first approach was, ``That is okay, 
we can just add more strategic warheads to Supreme Allied 
Commander Europe's targeting capabilities,'' and the allies 
said, ``No, that is not going to cut it; we need something on 
the ground that we can feel and touch and see.'' This is a 
similar situation, and I don't believe we should ever go to 
zero in Europe as long as the allies believe they need to be 
there.
    If at some point the allies don't feel we need to have the 
weapons there anymore, we should take them home. That is what 
happened in South Korea in the late 1980s. It is interesting 
now that some South Koreans are beginning to say they want the 
weapons back. They are never coming back, and we know that.
    So, again, if the allies believe this is important to their 
security and NATO is an alliance where the collective security 
is in everybody's interest, we need to listen to all the 
members of the Alliance.
    Dr. Halperin. Mr. Chairman, may I just comment on that?
    Mr. Turner. Yes, please.
    Dr. Halperin. The Central Europeans I talk to are much more 
concerned about their conventional military balance. They agree 
with Frank, as I do, that the real concern we have--and that we 
saw in Georgia--is whether the Russians can move conventionally 
along their borders, including against NATO countries.
    I am much more interested in our building up the 
credibility of our military presence in that part of the world, 
of our conducting exercises with the Poles and others on the 
border, and of finding ways to redress that local, tactical, 
conventional military balance which the Russians have shown us 
they do have and are capable of using, if not in NATO 
countries, at least in countries that are independent.
    And I think the lesson of the Cold War and of the period 
since the Cold War is that nuclear weapons are not a substitute 
for conventional military forces. They do not deter 
conventional action, either by nuclear powers or by non-nuclear 
powers, against nuclear powers, and I think we should be 
worried about the balance in the center of Europe.
    But the answer to that is not the few nuclear weapons we 
have in Western Europe; the answer to that is to take seriously 
that concern as a conventional military concern.
    Mr. Turner. Well, I am going to take Mr. Miller's comments 
about South Korea and expand this in the same genre for a 
moment. As we talk about the issues of reducing our strategic 
forces or our weapons in Europe, there are--beyond just our 
NATO allies--implications, both with those who would have 
confidence of our extended deterrence but also on whether or 
not they independently pursue nuclear weapons programs. Saudi 
Arabia, Turkey, Japan, South Korea or others, may look to 
whether or not they feel, in the environment that they are in 
or with those nations that are now becoming nuclear powers, 
that they must independently pursue these programs.
    And if you would all comment on that for one moment, and 
then I am going to turn it over to Ms. Sanchez, and we will go 
to a second round.
    Dr. Payne.
    Dr. Payne. Going back to the point that Frank made about 
South Korea and the call by some South Koreans for the nuclear 
weapons to come back, that is exactly the type of thing that we 
are seeing in response to the new fears that various allies and 
friends have as a result of proliferation.
    North Korea obviously has a nuclear capability. There are 
fears that Iran may soon have a nuclear weapons capability and 
missile systems to match that and exactly, as a result of those 
types of developments, we are, indeed, seeing allies who are 
reconsidering their past commitment to be in a non-nuclear 
status.
    I don't want to suggest that that is about to happen or, 
for example, that the Japanese are about to acquire nuclear 
weapons. I am not saying that. But what we do see is a very 
heightened concern by allies--key allies--and people in serious 
positions of authority who will say specifically that the 
directions that they are seeing in their region, the direction 
of nonproliferation they are seeing in their region, combined 
with the apparent U.S. interest in pulling back nuclear 
weapons, is of great concern to them and, in fact, they may 
have to reconsider their commitment to their non-nuclear 
status. We are hearing that explicitly from a number of allies 
and implicitly from others.
    Dr. Halperin. Again, I think we all hear from people in 
allied countries things that we are interested in hearing 
because those are the people we talk to in those countries.
    One of the recommendations of the Nuclear Posture 
Commission was that we needed to fundamentally change the way 
we consulted with Japan on nuclear questions and that we should 
not move on the TLAM missile but, even more generally, on 
nuclear deterrence without genuine consultation with them.
    The Administration took up that recommendation. There were 
more extensive and serious consultations with Japan during the 
Nuclear Posture Review than we ever had before.
    And my reading from Japan, having visited there and talked 
to people in the Government and the defense establishment after 
the Nuclear Posture Review is that they were fully satisfied 
with the consultation in cooperation and were comfortable with 
all of the decisions that we had announced in the Nuclear 
Posture Review.
    To be fair, they were worried, as people in this room are, 
about what the next phase might be and wanted to be sure that 
they continue to be consulted.
    But I believe--and I think the European example shows it as 
well--that consultations with our allies about our nuclear 
forces, about how we plan to use those nuclear forces, about 
why we think they are credible, are as important to the 
effective credibility of our deterrent in dealing with the 
potential nuclear proliferation threats than the specific 
deployments and that we ought to continue to pursue both.
    Mr. Miller. I think that the weapons that we have in Europe 
are weapons of war prevention.
    I obviously disagree with Mort. I think that the presence 
of those small number of weapons does symbolically raise the 
cost of a conventional attack on our NATO allies. I think that 
is why the allies believe they are so important.
    I believe the weapons in Europe have served an anti-
proliferant. It has caused nations that could develop nuclear 
weapons not to do so.
    I think in light of what is going on in Iran, withdrawing 
those weapons would send a signal which would cause people to 
lack confidence and to consider proliferating. And I think that 
our Far Eastern allies, Japan and South Korea, are also 
watching what we do with the NATO weapons when NATO allies have 
expressed a strong desire and a need to have the weapons 
forward.
    If we were to take them out, I think it would cause leaders 
in Tokyo and in Seoul to start questioning our commitment. And 
5, 10, 15 years down the road, we could have, we could have a 
proliferation situation in the Far East that I think would be 
very, very worrisome.
    Mr. Turner. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman and, again, thank you, 
gentlemen.
    I think Dr. Halperin is probably correct in saying, you 
know, it depends on who you talk to on any given day as to how 
people feel about having our nuclear capability and, certainly, 
tactical weapons within Europe.
    And I just want to put for the record that, from my 
standpoint, one of the things that we are doing to reassure our 
allies within Europe is continuing as well as we can--
considering we are also in two other wars, some would say 
three--to do forward-basing to put new bases in some of those 
countries in Romania, in Bulgaria, to move our troops out of 
the German line, if you will, and put them further south and 
further east in that area.
    So I think we are trying to, given the constraints that we 
have had on our military during what has been a very costly set 
of wars, that we have tried to do that, too.
    And given this concept that maybe what some of our NATO 
allies, especially the ones that used to be or were closer to 
the Soviet ring, that they view this whole issue of 
conventional warfare or somebody coming over their line--as we 
saw, for example, in Georgia, just a couple of years ago, that 
maybe that is what is making them want to hold onto this whole 
issue of strategic weapons.
    What other things do you think we could do, aside from 
nuclear, to assess and reassess and to build that confidence 
level with these former and, particularly, former satellites of 
the USSR?
    Dr. Payne. I agree with Mort in the sense that there are a 
number of measures that the United States can take to help 
reassure allies that don't necessarily have anything to do with 
nuclear weapons.
    As a matter of fact, the Administration has talked about 
missile defense as helping reassure allies and, obviously, that 
is non-nuclear, and other non-nuclear forces and actions as 
well. And I agree with that.
    But let me suggest that, in a sense, there is no substitute 
for extended nuclear deterrence to nuclear weapons. You can't 
provide extended nuclear deterrence with purely non-nuclear 
means. And so the question is, how important is the nuclear 
component of that? And this isn't something that we can judge 
usefully from here because that judgment is made in foreign 
capitals.
    And I will respond a bit to Mort's point that you--the 
answer you get depends on with whom you speak and so everything 
is all equal: I haven't found that to be the case. I mean, what 
I have found is very serious military and foreign affairs 
professionals who express the type of concerns that we have 
identified here.
    So I would like to suggest that I agree with Mort that 
there are a number of steps that we can take--close 
consultations, close cooperation on the conventional forces, a 
whole series of actions that we should and, in some cases, are 
taking to help affirm the allies' confidence in the United 
States--but if you take the nuclear portion out of the 
deterrent, in a sense you are taking the pillar out from the 
building. I mean, the nuclear deterrent as part of extended 
deterrence is a key to the allied assurance with regard to U.S. 
commitment. This isn't my interpretation; this is what many of 
them say.
    Ms. Sanchez. And, Doctor, do you think that--and I will ask 
you both--but do you think that the number of nuclear weapons 
that we have based in Europe, is there an ability to eliminate 
some of those and still have that capability and that assurance 
to our allies, or must we have all the ones that we have there? 
Because there are definitely countries that--whose people and 
whose politicians no longer are thrilled about having them 
there.
    Dr. Payne. Congresswoman Sanchez, that is a great question, 
and I would only suggest that an answer that I might give isn't 
worth very much because we want to go to the allies and see how 
the numbers affect their feelings of assurance with regard to 
the U.S. commitment. And so----
    Ms. Sanchez. But I am not talking about their feelings now. 
I am talking about your--your knowledge of, are there actually 
some that we could eliminate and still have the coverage that 
we need should there be somebody coming across the eastern 
lines?
    Dr. Payne. Let me take the ``feelings'' word out this and 
say it depends on how the allies see it. In terms of the 
assurance that is provided by our nuclear weapons to our 
allies, the relationship between numbers and that level of 
assurance is all in their perceptions of the situation. So 
whether that number can come down and provide the same level of 
assurance is going to be in the perspective of our allies.
    And so some allies, I believe, would say those numbers can 
come down. Other allies, I think, would be very wary about the 
United States even coming down to the numbers at this point.
    And so that is why this is, in a sense, an act that is very 
challenging because we have a large alliance, and some allies 
feel very strongly about this issue. Other allies perceive the 
threat as being much more benign. And that is why I would put 
this in the context of an allied question, really not a 
question that we can answer here as well as we would like to.
    Ms. Sanchez. Thank you. Doctor.
    Dr. Halperin. Thank you. I would agree with that last 
sentence. The nuclear element is an important element of our 
deterrent and our assurance to our allies. The question is 
whether that requires the stationing of the weapons in the 
territory of the countries we are trying to defend or the 
alliance we are trying to defend.
    We have had credible nuclear assurance with Japan from the 
beginning without storage of nuclear weapons in Japan, because 
the Japanese did not want them.
    We now have no nuclear weapons in Korea. I believe the 
credibility of our nuclear deterrent against a North Korean 
attack on South Korea is every bit as strong as it was before 
because there are large numbers of American troops in South 
Korea. And the North Koreans know that if they launch an attack 
with chemical weapons, or conventional weapons or nuclear 
weapons, they are going to kill lots of Americans and there is 
going to be a deterrent threat.
    I have always believed in Europe, the presence of American 
forces and the alliance conversations about both nuclear and 
conventional weapons were much more important than whether we 
had nuclear weapons here.
    I do want to go back into history because it is my 
understanding of the history that we were the ones who came up 
with the idea that nuclear weapons had to be stationed in 
Europe.
    It was not that our allies said we do not want your 
conventional forces unless we had nuclear weapons as well, but 
exactly the opposite. We said we are not sending our 
conventional forces unless they are accompanied with nuclear 
weapons. That is how it all began, and we have taught our 
allies to believe, because we believed, that the presence of 
nuclear weapons in Europe was necessary.
    This same debate with the same predictions of dire 
consequences occurred for every reduction from 6,500 to the 
current number. And every one of those moments, we were told 
exactly the same thing, talk to the right people in Europe, 
they will tell you this will have disastrous consequences. And 
the numbers have gone down steadily and, in my view, there have 
been no consequences because the Russians fully understand the 
credibility of the nuclear deterrent.
    I think it denigrates our commitment, and the understanding 
that our allies have of that commitment, to suggest that a few 
weapons in Europe somehow are an important part of the 
credibility of that deterrent.
    They are certainly no part, and here I want to be careful 
not to get into areas that we should not be discussing, but 
they are certainly no part of what we would actually do if 
there was a Russian invasion across the line. The notion that 
we would wait until those weapons were ready to begin to launch 
whatever defensive attack, including, if we thought it was 
appropriate, nuclear weapons--I think it is just wrong.
    We have weapons that are much more alert--if I can use that 
term--and if we decided nuclear weapons needed to be used, we 
would use. So this is not a matter of the operational need for 
those weapons in Europe because we might have some reason to 
want to deliver them from Europe rather than from submarines or 
from----
    Ms. Sanchez. Well, I asked that in the context of, I 
remember last year, Joint Chiefs of Staff Vice Chairman General 
James Cartwright said that, from a military point, there were 
probably 200 U.S. tactical nuclear bombs stored in Europe that 
didn't serve a military function that wasn't already covered by 
other assets we had.
    So that was in my context of the fact that we have some 
NATO allies that have expressed very strong, to me, at 
different levels of Government, have expressed very strong 
desires to, you know, some of this moved out whether, in fact, 
we can move some and still have the effect that we need from a 
deterrence standpoint.
    Mr. Miller. Let me respond if I might.
    The first question you asked was, are there other things we 
can do to reassure the allies? Absolutely, we can. There are 
consultations. We can develop contingency plans to defend them. 
We can carry out exercises to make those contingency plans 
real. Unfortunately, some of the older allies in the Alliance 
have blocked our ability until very recently to even do that 
contingency planning, saying that it was not allowed.
    So the new allies were feeling pretty alone in that regard. 
We tried to do other things. We were blocked by some of the 
older allies.
    Second, the question of numbers of weapons and Jim 
Cartwright's comment, I think, is not really the focus. Those 
weapons do not serve primarily a military purpose. They are 
weapons of war prevention and to reassure the allies. And I 
suppose it is true that you can get different views from people 
depending on who you talk to. You could walk through this 
building and get very different views.
    But, again, I hate to hold this [Active Engagement, Modern 
Defence: Strategic Concept for the Defence and Security of the 
Members of the North Atlantic Treaty Organisation adopted by 
Heads of State and Government in Lisbon, Nov. 19, 2010] up like 
it is Mao's Little Red Book. But this represents not people you 
just talk to on the street, this represents what the NATO 
governments--all 28 of them, believe in. And what they said 
was, we will ensure that NATO will maintain an appropriate mix 
of nuclear and conventional forces and we will ensure the 
broadest possible participation of allies and collective 
defense planning on nuclear roles in peacetime basing of 
nuclear forces.
    So it is not just anybody; this is what the leaders of the 
alliance said just last November.
    I think that the situation in the Far East is different. 
History plays a role here. We do extended deterrence in the Far 
East by central systems, but there are weapons on the ground in 
Europe today. And if we took them out, we would be changing 
that situation, and the allies know it.
    Starting from scratch, could we have done it with strategic 
systems only? Perhaps. But we are not starting from scratch, we 
are starting from the history of those weapons being there 
since the 1950s and with new allies joining the Alliance to be 
under their umbrella. So I think that is very important.
    I was present from the late 1970s in Government through 
2005. I was deeply involved in many of the reductions from 
7,000 to the current level.
    At no point in those did we have real allied concerns that 
we were going to change the situation. The allies concurred in 
the way we were doing it, as long as they were reassured that 
there was going to be some sort of a presence.
    And I will say in closing, Congresswoman, to your question, 
I think, and I said it before, I think it is morally wrong, I 
think it is morally failed, for those allies who wanted those 
weapons there during the Cold War, wanted the United States 
homeland to be at risk to help deter a Soviet conventional 
attack on their soil, can now say that it is okay, we are 
several hundred kilometers behind the lines now, we don't care 
what the guys who are on the line think.
    I think that is a failed moral policy of some those allies, 
and it is a complete and total disregard of what NATO is all 
about, which is collective security, not an individual nation's 
point of view.
    Ms. Sanchez. So let me ask you just a question for my own 
purposes. Do you, if you could start all over--let's say you 
had a blank slate and you were thinking about nuclear 
capability and what we wanted to see in that arena, what would 
you put in? And I guess I am asking this question from a sense 
of, Where should we think about putting funds? Where should we 
be accelerating what we need to do in order to not only have 
confidence from our allies there but, really, deter?
    Mr. Miller. I think it is pretty simple. The B-61 bomb 
needs to be modernized anyway. There is a program to do so. The 
B-61 has both tactical and strategic capabilities. It needs 
modernization; some money is going to that.
    We are buying the Joint Strike Fighter, the F-35. That is 
very important, too. It is going to have a nuclear capability, 
and allies are going to buy that fighter aircraft.
    So it is not a question of cost or buying new aircraft that 
they weren't going to buy anyway. It is a question of having 
the political will to have a couple of nuclear weapons on their 
soil as part of a collective defense.
    The new allies would take nuclear weapons, but because we 
made a pledge in the late 1990s to reassure the Russians, we 
can't put them there. So now it is back to the collective good.
    As to the numbers of weapons, it is more whether countries 
will stay in the basing role as to whether we can reduce the 
number that we have there. I personally think we can reduce the 
number that we have there as long as countries continue to base 
them.
    I think the last thing we can do is to ensure that we 
continue to tell the old allies that we have protected their 
freedom for four decades or more, that they have a moral 
responsibility to help protect the freedom of the new allies.
    Ms. Sanchez. Doctor.
    Dr. Halperin. I have to say I have now reread the NATO 
Strategic Concept, and I don't, I didn't remember it saying and 
I don't find it saying that there is an agreement that there is 
a requirement that nuclear weapons be based in Europe. I think 
on the--can't turn.
    Mr. Miller. Other page. Widest possible--peacetime basing 
in the United States.
    Dr. Halperin. No, it says. Frank, it says ensure the 
broadest possible participation, allies, in collective defense 
planning on nuclear forces.
    Mr. Miller. Yes.
    Dr. Halperin. In peacetime basing of nuclear forces.
    Mr. Miller. In peacetime basing of nuclear forces--in 
Europe.
    Dr. Halperin. No.
    Mr. Miller. It doesn't mean in the United States and France 
and----
    Dr. Halperin. It doesn't say that. It says the broadest 
possible participation in collective defense planning. You know 
and I know there were people who want----
    Mr. Miller. Keep going.
    Dr. Halperin. I am going to keep going. And in command and 
control and consultation arrangements. It is the broadest 
possible participation in those things.
    Mr. Miller. In peacetime basing among the three.
    Mr. Turner. Gentlemen, I think we have noted your diverging 
opinions.
    Mr. Miller. We disagree.
    Ms. Sanchez. Any other thoughts, Doctor, before I go over 
to Dr. Payne.
    Dr. Halperin. No.
    Ms. Sanchez. Thank you. Dr. Payne, any finishing thoughts?
    Dr. Payne. The question with regard to the blank slate, 
again, I think is a good question. To answer that question, we 
do need to do, I believe, what Frank was getting at, and that 
is to go to the allies as an Alliance and see what they see as 
necessary for their assurance.
    Let me just add that I frequently hear it said that the 
credibility of our deterrent to Russia is strong without 
nuclear weapons in Europe, and Mort just made that point. I 
hear that frequently. And the implication is, therefore, we 
don't need weapons in Europe.
    Or, I have heard the point that says that we don't need to 
employ nuclear weapons deployed in Europe; therefore, we can 
pull our nuclear weapons out of Europe. Those are the two 
points that are frequently made in this regard.
    But let me just suggest that neither of those points are 
really pertinent. We don't have nuclear weapons in this case. 
We don't judge our nuclear weapons by how we grade their 
credibility to Russia for the purposes of assurance of allies 
and we don't grade our nuclear weapons by whether they would be 
useful and employed; that is war planning. We don't do war 
planning on this panel.
    What we are looking at is, what does it take to assure the 
allies of our commitment to their security? That is the number 
one question, and that has very little to do with these other 
points that are often made.
    And so I think this Administration has done a good job in 
going to allies and done serious consultations with them on 
this question. The only thing that I would suggest here, in 
conclusion, is that I would hope that once we take those 
consultations, we actually act upon them and don't act 
unilaterally in ways that these key allies who have joined NATO 
for this purpose or for this reason find very, very alarming--
because, in a sense, it is the United States backing out of 
both treaty and moral commitments that we have made.
    Ms. Sanchez. Well, certainly, I know that this 
Administration has worked very hard and we are very fortunate 
to have Ellen Tauscher over there working. She has got a very 
good working relationship with our European allies and they, to 
a large extent, trust her on a lot of these issues.
    I know that this committee has worked very hard. We have 
made trips, even though we get slapped around for going to 
Europe to talk to our allies when, you know, when we are 
switching up or changing some ideas in particular with respect 
to missile defense that we have really, you know, worked hard 
to go and reassure and talk about what we really see. And I 
hope that we continue to work in a very bipartisan manner to do 
that.
    We are--I don't think any of us are suggesting let's pull 
everything out of the land over there. I think we are just 
trying to, in a time of very limited budgets and, you know, I 
mean, that is why we are at a standstill right now, even in 
trying to raise this debt limit.
    At a time of limited budget, we are trying to figure out 
where do we--where is the strategic place for us to be, given 
that we can't do everything anymore? I mean, we can't do 
everything. We just can't do it anymore, so we have to just be 
smarter and that is why we ask you, what do you think is the 
best way for us to move forward?
    So I thank you for being before us.
    Mr. Turner. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you, gentlemen, for joining us.
    Let me start with a question about the Nuclear Posture 
Review. In that review, the Administration mentions as a 
subject for study for future reductions the effort of exploring 
new modes of ICBM basing. When they say for possible 
reductions, that fascinates me. Can you tell me what in the 
world that means?
    Dr. Halperin. I have been, I have been asking about that, 
and I am told there was one person somewhere in the Pentagon 
who had this, an interest in this and somehow got the sentence 
in when people weren't paying attention.
    As far as I can tell, there is no--there is no serious 
interest in this. Nobody is thinking about new modes. I mean, 
that seems to be a reference to rail mobile----
    Mr. Franks. Not putting on family cars, things like that?
    Dr. Halperin. No, no. Rail mobile is something we have 
thought about from time to time for many years. There are many 
things uncertain about America, but that we will never have 
rail mobile ballistic missiles, I think, is a certainty. It is 
not going to happen. There are many statements in the Nuclear 
Posture Review to worry about, but I would not worry about that 
one. You have my assurance.
    Mr. Franks. Well, okay. I am glad you are comforted by all 
of that.
    Well, anyway, let me ask you about the nuclear triad. In 
testimony before the Senate Armed Services Committee on May 4, 
the Principal Deputy Secretary of Defense James Miller stated 
that the upcoming deterrence review would proceed consistent 
with what he called the ``principles'' of the Nuclear Posture 
Review.
    One important conclusion of the 2010 Nuclear Posture Review 
was that the triad should be preserved. But in an interview 
published that same day, White House official Gary Samore 
suggested that this deterrence review would look at whether we 
should eliminate one of the legs of the triad. And some might 
wonder, therefore, which of the conclusions the NPR [Nuclear 
Posture Review] the Administration considers definitive, and 
which parts of the NPR are subject to change.
    The NPR reaffirms that each of the legs of the triad has 
unique characteristics in terms of assurance, survivability, 
visibility, upload potential, accuracy, and ability to 
penetrate defenses. And, of course, I agree with that.
    So remind us if you can--and if those that are in the 
Administration are listening--what are some of the respective 
virtues of each leg of the triad, and I will kind of ask that 
as a broad question to each of you.
    Dr. Halperin, if you want to begin.
    Dr. Halperin. Well, let me say, I think before you came in, 
Mr. Franks, I said very clearly what I have always believed: It 
would be a mistake to open the question of whether we should 
move away from the triad.
    I believe that for foreseeable levels of nuclear forces, we 
should maintain the triad and that each of them does have 
different characteristics.
    The most important, in a way, is that what you worry about 
some catastrophic failure that you wake up some morning and 
discover, you know, three missiles exploded on the launch pad 
and you suddenly realize there is a technical flaw, and you 
have got to take them all down and fix them. Or you suddenly 
discover the Russians know where our submarines are, or that 
you conclude that their air defenses are so good that no bomber 
will ever get through.
    The essential point is it is possible to conceive of one 
system having a catastrophic failure like that. If you are a 
real worrier, you can conceive about two systems going out 
simultaneously. But three cannot, you know, then we get to the 
law of averages. They may all go out over time, but not at the 
same time.
    So just for that reason, it seems to me----
    Mr. Franks. Just redundancy alone.
    Dr. Halperin. It is redundant. It gives you flexibility on 
how you can use them. You may be in a situation where you don't 
want to fire from the land, but you feel willing to fire from 
the sea. You can imagine many different characteristics of the 
systems.
    But in my view, the most important one is that unexpected 
vulnerabilities, if they arise, are going to arise probably in 
only one system. It is one of the reasons why--because the 
other vulnerability we are worried about is suddenly 
discovering none the weapons work, and it is why the 
modernization of our weapons infrastructure is so important and 
finding ways to test the systems without nuclear tests is so 
important, so we don't wake up one day and discover the weapons 
failed.
    But if we have three delivery systems in several different 
weapons, then I think we can be pretty confident that enough of 
it is going to work to deter.
    Mr. Franks. Thank you.
    Mr. Miller, I might expand on that a little. All things 
being equal, do the virtues of a triad become more or less 
relevant at lower nuclear numbers? And if you want to expand on 
the question that I asked Dr. Halperin, that is fine, too.
    Mr. Miller. Yes, sir. I believe that they do become more 
important at lower numbers. I think Mort has adequately has 
beautifully described the various attributes of the triad: 
Offsetting capabilities, offsetting vulnerabilities, offsetting 
failure modes, different signaling capabilities in a crisis or 
pre-crisis period. And as the force comes down, you absolutely 
want to have the capability in three legs to offset a failure 
mode in one leg.
    So I think that is absolutely essential. It is why I think 
the Administration really needs to be a lot more transparent 
with the Congress and the American people as to what it intends 
to do with the air breathing leg, with the bomber force, and 
with the ICBM force.
    I would also say that there is almost a fourth leg that is 
unremarked upon, and that is Prompt Global Strike. We have been 
talking about prompt global strike for probably 6 or 7 or 8 
years, and all we have deployed are more and more PowerPoint 
slides. We could break that ceiling. We could have in place a 
system based on Trident in about 3 years.
    The Senate held that up for a long time because it argued 
that was destabilizing. It asked the National Academy of 
Sciences to do a study on that. The National Academy came back 
and said this isn't a problem. But we still haven't moved 
forward. We are still studying to find the best of the best of 
the best systems. So that, I think, is a fourth component to an 
overall strategic triad.
    Mr. Franks. Well, not to beat the question to death but, 
Dr. Payne, can you give me some idea of what you think the 
elimination of a leg of the triad would do to strategic 
stability of the United States?
    Dr. Payne. Well, to the extent that stability is based on 
the character of our force posture, it would ease, or 
potentially ease, an opponent's efforts and strategy to get 
around our deterrent by reducing the survivability of our 
forces, by reducing those characteristics that Mort and Frank 
so nicely described. I mean, the whole point of having those 
characteristics isn't just because we like to collect 
characteristics for forces, it is because they are extremely 
important because in toto what they do is they deny an opponent 
any plausible strategy for getting around our deterrent. And as 
you pull the legs of that triad down, you reduce that ability 
to deny them a theory of success, as it is called.
    Mr. Franks. Well, of course, I couldn't agree with you 
more. I could try, but I couldn't agree with you more.
    Then, am I to assume, essentially, that this talk of 
removing a leg of the triad is just some low-level person in 
Administration that slipped that line in there somehow, right? 
And the person's name is not Obama; correct?
    Mr. Miller. We are all private citizens. I don't think we 
can comment authoritatively.
    Mr. Franks. I was just trying assure myself here a little 
bit. All right. Well, thank you, all very much, and we 
appreciate your service to the country.
    Mr. Turner. Gentlemen, I am going to ask you a wrap-up 
question that goes to the role of Congress.
    Doctors Payne and Halperin, you participated in the 
Strategic Posture Commission, which actually called for, as a 
part of its recommendations, renewed congressional involvement 
and dialogue between the executive and legislative branches.
    Now, Dr. Halperin, you noted the one source of 
administration angst and veto threat motivation is executive 
prerogative.
    Mr. Miller, you said in your written testimony and in your 
statements here that both the Senate and House need to be more 
active and have deeper involvement in nuclear and strategic 
issues.
    So I thought we would take a moment and end on your 
collective thoughts on how the executive and legislative 
branches should be working together and how the House of 
Representatives might reinvigorate its robust oversight of 
these important issues.
    Mr. Miller, since it was actually in your written 
testimony, I will start with your thoughts.
    Mr. Miller. Thank you, sir.
    I want to commend you and Ms. Sanchez for having these 
hearings and for doing that. I was a creature of the executive 
branch for 28 years. Some of my trips up here were more 
pleasurable than others, shall we say. But it was always 
important.
    The Congress has to be involved in these issues because it 
is through the congressional involvement that, in fact, the 
American people see a broader picture of all of this and, 
therefore, I strongly support a reinvigorated series of 
hearings and having the Congress say that these are important 
issues, that nuclear weapons may have a reduced role or a 
smaller role in our national strategy than they have had in the 
past. But they are, by God, truly important subjects on which 
the life of the Nation could depend at some point and a 
vigorous public debate to put these issues out into the open 
and to examine the Administration's promises and its actions is 
terribly important.
    So I would commend you for that. And as I said in my 
written testimony, I think the Section 1051, where you are 
asking the commanders, the nuclear commanders, to provide you 
annual reports is terribly important.
    Mr. Turner. Dr. Halperin.
    Dr. Halperin. I have always been and remain a very strong 
believer in Congress' equal role in this. I noticed in your 
back room, you had the right section of the Constitution up on 
the wall.
    I think Congress does have the power to make rules and 
regulations for the Armed Forces and that the Armed Forces 
cannot spend a penny that they don't get from the Congress. So 
I think it is clear this is and should be an equal 
relationship, and I would hope it would be one that was not 
marked by suspicion and by, in effect, a struggle to find 
differences or to exaggerate differences.
    I think you need to understand every administration has 
different people in it who say different things because they 
are engaged in debates within the Administration about one 
subject or another and that they are appealing to different 
audiences. And so I think it is important to remain calm and to 
engage in a dialogue which is open in both directions.
    So, as I have said, I think it is important that we not 
have a study which assumes the purpose of the study is to 
reduce the numbers, but I think it is also important to have a 
study in which people are not saying in advance, but if you 
leave open the possibility that you are going to say a lower 
number is okay, that there is something wrong with that.
    I think my own view is that the nuclear forces should have 
a very high priority within the defense budget. Put a different 
way, I cannot imagine the defense budget, even in the current 
climate, going so low that we should not spend every penny 
which increases the credibility and effectiveness of the 
nuclear force.
    And so I don't think there should be a fight about funding. 
I think we need to fund what we say we are going to fund, and I 
need to--we need to honor the sequencing that we committed 
ourselves to when the treaty was ratified.
    But I think within that, there is scope for debate about 
whether we should change some elements of the way we operate 
the force to make it more stable and more secure.
    Mr. Turner. Dr. Payne, in addition to answering that 
question, since the clock was running during your opening, if 
there are additional comments that you would like to add in 
closing, you may take that opportunity now.
    Dr. Payne. Thank you, Mr. Chairman.
    The first part of the question was, I think it is between 
the Congress and the executive branch, and I am very encouraged 
by the hearings that you and Ranking Member Sanchez have put 
together. They strike me as enormously important and, I hope, 
something that will be continued; particularly your willingness 
to ask the questions and then asking the second and third order 
questions, because the answers to these types of questions can 
get somewhat arcane. The language isn't all agreed upon. There 
are different buzzwords. It is not easy to have a clear 
understanding of this area, but I want to compliment you all on 
having hearings that have really brought this material out, and 
I would just say more of that would be great.
    I think that is one area that was somewhat lacking in the 
past and moving on to hearings that really get into these 
issues. And I am not talking about nuclear employment issues. 
Obviously specific questions about nuclear employment aren't 
for public discussions. But that is not necessarily all that is 
important. In fact, in the types of things we are talking 
about, it doesn't necessarily pertain.
    Being able to ask the question of what is your theory of 
deterrence? What do you think deters, and why do you think the 
forces that you have talked about that you either want or don't 
want, will deter or assure the allies, or provide persuasion, 
or any of the other number of goals that these forces are 
supposed to support?
    And so I guess the bottom line of the comment that I am 
making is, more transparency in all of this is much better than 
the lack of transparency, and you have a prerogative with the 
power of the purse strings to ask these questions in very 
direct ways and insist on transparent answers. I think that 
would help, that would help enormously.
    And as for maybe the last 30 seconds that you graciously 
offered me, I would just like to suggest that when we look at 
future reductions, I didn't say that there is no room for 
future reductions. There may well be room for future 
reductions.
    What I did try and point out is, just because people now 
claim that we can have a retaliatory capability at lower 
numbers doesn't equate that there is room for future 
reductions. That is an absolute non sequitur. Because how we 
judge the value and adequacy of our forces isn't just based on 
whether we have the number of forces necessary to meet some 
targeting requirement.
    Reassurance to the allies has its own set of requirements. 
Extended deterrence of the allied--of our allied enemies, 
enemies of our allies, has another set of requirements. So the 
set of requirements that helps us get to a real understanding 
of our strategic force needs is much beyond what might be 
considered appropriate for some employment policy. That is only 
one--in fact, I would say that is only one small part of the 
answer.
    Mr. Turner. Gentlemen, I want to thank you again. This has 
been a great discussion, and thank you for your important 
contributions to an issue that I think we all believe goes 
right to the heart of our national security.
    So, thank you.
    [Whereupon, at 5:04 p.m., the subcommittee was adjourned.]
     
=======================================================================

                            A P P E N D I X

                             July 27, 2011

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 27, 2011

=======================================================================
      

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 27, 2011

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 27, 2011

=======================================================================
      
                   QUESTIONS SUBMITTED BY MS. SANCHEZ

    Ms. Sanchez. What do you think should be the appropriate level of 
our nuclear arsenal to meet our requirements for deterrence and nuclear 
defense?
    How should the Executive Branch determine ``how much is enough'' to 
deter a nuclear attack on the homeland or against our allies, what are 
the assumptions upon which those judgments are made, and how, if at 
all, should we adjust nuclear deterrence requirements to reflect 21st 
century realities?
    Have we ever had a fresh look that was not tied to simply reducing 
the number of weapons from Cold War levels, but rather based on what we 
really need to deter our adversaries?
    Dr. Payne. ``How much is enough'' for deterrence depends on the 
opponents, threats and circumstances US deterrence strategies are 
intended to address. These factors are not fixed and can change 
rapidly. Correspondingly, the answer to the question ``how much is 
enough'' also is subject to frequent and rapid change--there can be no 
enduring, fixed answer in terms of the number of warheads and 
launchers. In general, because US deterrence requirements can change as 
rapidly as the threat conditions and circumstances, the most important 
characteristic of the US arsenal for deterrence purposes is its ability 
to adapt rapidly to changing requirements across the spectrum of 
pertinent opponents and contingencies. Consequently, the number and 
qualities of the US arsenal for deterrence purposes should be shaped by 
the requirement that the US force structure be sufficiently flexible 
and resilient to adapt to a wide-range of plausible threats. This 
suggests the need for a diverse force of sufficient size to be so 
flexible and resilient.
    There have been several official reviews of US nuclear requirements 
that do not appear to have been so tied to simply reducing the number 
of weapons from Cold War levels. These reviews include the 1994, 2001 
and 2010 Nuclear Posture Reviews. In addition, the 2009 report of the 
bipartisan Congressional Strategic Posture Commission on which I served 
made numerous recommendations regarding arms control, but was not 
simply tied to reducing force numbers.
    Ms. Sanchez. As we modernize the nuclear weapons complex and build 
new billion dollar facilities for producing new plutonium pits and 
uranium secondaries for nuclear weapons, should we be thinking about 
how to incorporate verification capability in the event nuclear weapons 
capabilities are ever subject to arms control agreements? Why/why not?
    Dr. Payne. Yes. For the purposes of transparency we should think 
about the potential benefits, costs and risks of incorporating such 
verification measures, as well as the prospects for strict reciprocity 
by at least Russia and China in doing so. Thinking about this issue now 
could help US negotiators to understand the implications of moving in 
this direction before they engage in discussions of the subject.
    Ms. Sanchez. We learned earlier this year that Russia already has 
met most of its arsenal reduction obligations under New START. The 
State Dept. reported June 1 that Moscow was below the treaty's limits 
of 1,550 deployed strategic warheads and 700 deployed delivery vehicles 
and close to the 800 limit on launchers. The United States does not 
currently plan to reach these limits until 2018.
    In addition, Russian nuclear policy expert Alexei Arbatov has 
warned that Russian nuclear weapons might fall well below New START 
levels in the next few years, potentially to 1100 or 1000 warheads, and 
that Russia is designing a new heavy ICBM with MIRV capability to build 
back up to New START levels.
    How would this affect strategic stability? How might US nuclear 
posture and signals affect this decision?
    Would you agree that rather than induce Russia to build up, it is 
in the security and financial interests of both countries to pursue 
further, parallel reductions in their strategic nuclear forces and to 
cut the size of their non-deployed reserve stockpiles?
    Dr. Payne. Prior to the ratification of the New START Treaty, it 
was obvious from the open Russian press that the number of Russian 
deployed warheads and launchers would not be reduced by the Treaty 
ceilings. Russian forces already were moving to lower numbers due to 
natural aging and withdrawal of the systems. This is why Treaty 
skeptics rightly argued that the treaty effectively requires unilateral 
warhead and launcher reductions by the United States.
    It also is clear from the open Russian press that Russia has robust 
nuclear modernization programs that will lead to the deployment of a 
variety of new Russian nuclear weapons later in this decade, primarily 
after the term of the New START Treaty. It appears that this Russian 
nuclear buildup has been in process for years and that even the recent 
US unilateral reduction in tactical nuclear weapons and the US 
unilateral reductions called for by the New START Treaty have not 
dampened Russia's nuclear modernization programs. This Russian nuclear 
buildup is not induced by US behavior, but by Russia's felt-need to 
meet its many and varied security requirements via heavy reliance on 
modern nuclear capabilities, including vis-a-vis China.
    It certainly is in US and Russian interests to have the lowest 
number of forces compatible with each country's respective security 
requirements. And, it is my hope that Russia will reduce the size of 
its very large tactical nuclear arsenal--an arsenal that is 
approximately 10 times the size of the comparable US arsenal. However, 
because Russia has significantly different security requirements than 
does the United States, and sees great value in its continuing nuclear 
modernization programs, the prospects for Russian acceptance of further 
deep parallel reductions are limited, as is the prospect for Russian 
acceptance of negotiated deep reductions in the number of Russian 
deployed warheads or in the reduction of tactical nuclear weapons.
    Ms. Sanchez. Last year, Joint Chiefs of Staff Vice Chairman Gen. 
James Cartwright has acknowledged, that the approximately 200 U.S. 
tactical nuclear bombs stored in Europe do not serve a military 
function not already addressed by other U.S. military assets. Do you 
agree/disagree? Is there any contribution to nuclear deterrence that 
could not be achieved by our strategic weapons?
    Dr. Payne. I have no reason to disagree with Gen. Cartwright's 
statement. However, the lack of an immediate military function for US 
nuclear forces in Europe has little to do with the value of these 
forces for extended deterrence and the assurance of allies. Deterrence 
and assurance are political and psychological functions--the value of 
nuclear weapons for these missions is largely in their non-use, not 
their military employment per se. In this regard, US nuclear forces 
located in Europe certainly appear to be important for the continued 
assurance of some key NATO allies and the continued presence of US 
nuclear forces in Europe may contribute uniquely to the credibility of 
deterrence in plausible scenarios.
    Ms. Sanchez. Under what likely scenarios would the US tactical 
nuclear weapons in Europe be used, and in what situations would they be 
preferable over other existing weapons, including conventional and 
strategic nuclear weapons?
    Dr. Payne. I would prefer not to speculate about actual nuclear 
employment options or to compare those options to the employment of 
non-nuclear forces. My focus is on the deterrence of war. Whether or 
how nuclear forces would be employed for military purposes may have 
little direct relevance to their potential value for the deterrence of 
war and the assurance of allies.
    Ms. Sanchez. How relevant are the U.S. tactical nuclear weapons to 
Russia's security calculations? To what extent might the Russians see 
the presence of the tactical nuclear weapons in Europe as an excuse for 
inaction on addressing their own tactical nuclear arsenal?
    Dr. Payne. Russia's requirement for tactical nuclear weapons 
clearly is not driven by the number or presence of US tactical nuclear 
weapons in Europe. According to numerous open Russian discussions of 
tactical nuclear weapons, Russia's conventional forces are far from 
adequate to defend Russia's extensive borders, including against 
conventional attacks. Russia essentially has chosen to rely on tactical 
nuclear weapons to compensate for the inadequacies in its conventional 
forces to defend its borders. Russian doctrine specifically leaves open 
the option of using tactical nuclear weapons to defend Russia's borders 
against conventional attack. Consequently, I do not believe the removal 
of the relatively small number of remaining US nuclear weapons in 
Europe would have any effect on Russia's felt-need to maintain a large 
number of modern tactical nuclear weapons.
    Ms. Sanchez. In 2008, the Air Force conducted a Blue Ribbon Review 
and found security to be insufficient around some of the sites where 
U.S. tactical nuclear weapons are likely based in Europe. Allies 
apparently made security adjustments. Since then, protestors breached 
security at Klein Brogel Airbase, where some of these weapons are 
thought to be stored. To what extent should nuclear security and 
terrorism be considered in a decision to remove or reduce the tactical 
nukes?
    Dr. Payne. Maintaining the security of US nuclear forces should be 
a priority consideration at all times and circumstances.

    Ms. Sanchez. What do you think should be the appropriate level of 
our nuclear arsenal to meet our requirements for deterrence and nuclear 
defense?
    How should the Executive Branch determine ``how much is enough'' to 
deter a nuclear attack on the homeland or against our allies, what are 
the assumptions upon which those judgments are made, and how, if at 
all, should we adjust nuclear deterrence requirements to reflect 21st 
century realities?
    Have we ever had a fresh look that was not tied to simply reducing 
the number of weapons from Cold War levels, but rather based on what we 
really need to deter our adversaries?
    Dr. Halperin. We have not had a fresh look at the requirements for 
deterrence since the end of the cold war. We need such a review asking 
for each potential adversary what forces are necessary to deter nuclear 
attacks on the United States or other countries that we protect from 
nuclear attack with our forces. We need to understand that a major part 
of the deterrent of such attacks is our capacity and will to respond 
promptly with conventional forces. Our nuclear forces should be seen as 
a backup. The level of nuclear forces that are needed is difficult to 
specify in advance. I am confident that the number we need for this 
purpose is well below 1,000 total weapons both deployed and non-
deployed. Whether we can go to such numbers would depend on whether the 
Russians would agree to the numbers and whether we can reach some 
agreement with China.
    Ms. Sanchez. Could you explain the link between nuclear non-
proliferation and progress on nuclear arms control?
    Dr. Halperin. I believe that over time there is a direct link 
between nuclear non-proliferation and arms control. Unless the US and 
Russia (who still possess more than 90% of the world's nuclear weapons) 
continue to reduce their forces and decrease their reliance on nuclear 
weapons the non-proliferation regime could come apart. The most 
important step we could take now would be to ratify the CTBT and bring 
it into existence.
    Ms. Sanchez. As we modernize the nuclear weapons complex and build 
new billion dollar facilities for producing new plutonium pits and 
uranium secondaries for nuclear weapons, should we be thinking about 
how to incorporate verification capability in the event nuclear weapons 
capabilities are ever subject to arms control agreements? Why/why not?
    Dr. Halperin. We need to be thinking hard about how to verify 
existing stockpiles and production facilities both in the US and Russia 
as well as new facilities which we are building. If we are to get to 
agreements on total stockpile levels below 1,000 we will need new ideas 
for verification.
    Ms. Sanchez. We learned earlier this year that Russia already has 
met most of its arsenal reduction obligations under New START. The 
State Dept. reported June 1 that Moscow was below the treaty's limits 
of 1,550 deployed strategic warheads and 700 deployed delivery vehicles 
and close to the 800 limit on launchers. The United States does not 
currently plan to reach these limits until 2018.
    In addition, Russian nuclear policy expert Alexei Arbatov has 
warned that Russian nuclear weapons might fall well below New START 
levels in the next few years, potentially to 1100 or 1000 warheads, and 
that Russia is designing a new heavy ICBM with MIRV capability to build 
back up to New START levels.
    How would this affect strategic stability? How might US nuclear 
posture and signals affect this decision?
    Would you agree that rather than induce Russia to build up, it is 
in the security and financial interests of both countries to pursue 
further, parallel reductions in their strategic nuclear forces and to 
cut the size of their non-deployed reserve stockpiles?
    Dr. Halperin. A Russian decision to build a new heavy ICBM would 
reduce strategic stability. To ward this off the United States should 
announce that it will meet the START levels as soon as possible and 
give a timetable for that. We should also consider proposing an 
amendment to the START Treaty to provide for lower levels of deployed 
warheads and delivery systems leaving all other aspects of the treaty 
in place. Alternatively we should propose to the Russians that we each 
go to a lower level by mutual restraint without amending the treaty.
    Ms. Sanchez. Last year, Joint Chiefs of Staff Vice Chairman Gen. 
James Cartwright has acknowledged, that the approximately 200 U.S. 
tactical nuclear bombs stored in Europe do not serve a military 
function not already addressed by other U.S. military assets. Do you 
agree/disagree? Is there any contribution to nuclear deterrence that 
could not be achieved by our strategic weapons?
    Dr. Halperin. I agree with Gen. Cartwright. The weapons deployed in 
Europe do not, in my view, make any contribution to deterrence not 
achieved by our strategic forces. The decision to remove the remaining 
weapons should be made by the NATO alliance by consensus but the USG 
should state this conclusion as the official position of the American 
government.
    Ms. Sanchez. Affirming that ``As long as nuclear weapons exist, 
NATO will remain a nuclear alliance,'' and that ``The supreme guarantee 
of the security of the Allies is provided by the strategic nuclear 
forces of the Alliance, particularly those of the United States,'' the 
November 2010 NATO Strategic Concept, unlike its 1999 predecessor, made 
no mention of non-strategic weapons forward deployed in Europe. In 
addition, German, Dutch and Belgian government officials have called 
for the removal of forward-based tactical nuclear weapons at bases in 
these countries.
    With tactical nuclear weapons no longer appearing to be a unifying, 
but rather a divisive, element within NATO, what alternatives are there 
to demonstrate US resolve to defend European allies that could replace 
the political value of tactical nuclear weapons in Europe?
    Dr. Halperin. We need to discuss what we should do if a decision is 
made to remove the remaining nuclear weapons. We should commit to 
continuing close consultations on our nuclear posture and to 
maintaining a significant conventional military presence in Europe.
    Ms. Sanchez. Under what likely scenarios would the US tactical 
nuclear weapons in Europe be used, and in what situations would they be 
preferable over other existing weapons, including conventional and 
strategic nuclear weapons?
    Dr. Halperin. There are no conceivable scenarios in which the 
weapons now in Europe would actually be used. They are not available 
for immediate use as are our strategic weapons and our conventional 
forces. They have no operational role.
    Ms. Sanchez. How relevant are the U.S. tactical nuclear weapons to 
Russia's security calculations? To what extent might the Russians see 
the presence of the tactical nuclear weapons in Europe as an excuse for 
inaction on addressing their own tactical nuclear arsenal?
    Dr. Halperin. I do not think our tactical nuclear weapons in Europe 
play any significant role in Russian security calculations. I also do 
not think that removing them would have any significant impact on the 
Russian tactical nuclear arsenal.
    Ms. Sanchez. In 2008, the Air Force conducted a Blue Ribbon Review 
and found security to be insufficient around some of the sites where 
U.S. tactical nuclear weapons are likely based in Europe. Allies 
apparently made security adjustments. Since then, protestors breached 
security at Klein Brogel Airbase, where some of these weapons are 
thought to be stored. To what extent should nuclear security and 
terrorism be considered in a decision to remove or reduce the tactical 
nukes?
    Dr. Halperin. Concerns about nuclear security and terrorism as well 
as the costs of guarding against them should be primary considerations 
in deciding whether to remove the weapons. A successful penetration by 
a protest group could generate strong public demands to remove the 
weapons.
    Ms. Sanchez. There have been some criticisms that the US decision 
to retire the TLAM-N (Nuclear Tomahawk) prompted concern in Japan. Can 
you shed more light on this and how would this inform the process and 
consultations with our NATO allies and East Asian allies on extended 
deterrence?
    Dr. Halperin. I visited Japan both during and after the NPR. I am 
very confident that the Japanese government and private analysts 
understood the rationale for the USG decision to retire the TLAM-N and 
that it did not prompt any concern in the context of exceptional 
consultation between the two governments. The lesson is to fully 
consult and to explain the options we are considering and listen 
carefully to the responses of other governments.

    Ms. Sanchez. What do you think should be the appropriate level of 
our nuclear arsenal to meet our requirements for deterrence and nuclear 
defense?
    Mr. Miller. U.S. deterrence policy must be based on assessing the 
goals and valued assets of our potential adversaries. We must threaten 
to destroy, if attacked, the assets which a potential enemy leadership 
would rely on to dominate a post-war world. In the case of 
authoritarian states, this often includes military forces, the ability 
to control their own country (thus including leadership, intelligence, 
and internal security forces), and the industrial potential to sustain 
war. This intellectual template must be fleshed out by continued and 
focused intelligence and scholarship on the value structure of every 
potential enemy leadership which would threaten nuclear attack or major 
aggression against the United States or our allies.
    Ms. Sanchez. How should the Executive Branch determine ``how much 
is enough'' to deter a nuclear attack on the homeland or against our 
allies, what are the assumptions upon which those judgments are made, 
and how, if at all, should we adjust nuclear deterrence requirements to 
reflect 21st century realities?
    Mr. Miller. As noted above, we must determine ``how much is 
enough'' by understanding what assets potential enemy leaderships value 
and then holding those assets at risk. This construct is as true in the 
21st century as it was in the 20th century, although the specific 
assets to be held at risk may differ from historical models.
    Ms. Sanchez. Have we ever had a fresh look that was not tied to 
simply reducing the number of weapons from Cold War levels, but rather 
based on what we really need to deter our adversaries?
    Mr. Miller. The major review of U.S. nuclear war plans carried out 
by the George H. W. Bush administration and the Nuclear Posture Review 
conducted by the George W. Bush administration both focused on what was 
needed to deter potential adversaries.
    Ms. Sanchez. As we modernize the nuclear weapons complex and build 
new billion dollar facilities for producing new plutonium pits and 
uranium secondaries for nuclear weapons, should we be thinking about 
how to incorporate verification capability in the event nuclear weapons 
capabilities are ever subject to arms control agreements? Why/why not?
    Mr. Miller. I am no longer sufficiently well versed in nuclear 
weapons production techniques to be able to provide the sub-Committee 
with a useful answer in this regard.
    Ms. Sanchez. We learned earlier this year that Russia already has 
met most of its arsenal reduction obligations under New START. The 
State Dept. reported June 1 that Moscow was below the treaty's limits 
of 1,550 deployed strategic warheads and 700 deployed delivery vehicles 
and close to the 800 limit on launchers. The United States does not 
currently plan to reach these limits until 2018.
    In addition, Russian nuclear policy expert Alexei Arbatov has 
warned that Russian nuclear weapons might fall well below New START 
levels in the next few years, potentially to 1100 or 1000 warheads, and 
that Russia is designing a new heavy ICBM with MIRV capability to build 
back up to New START levels. How would this affect strategic stability?
    Mr. Miller. The Russian government is evidently content that 
strategic stability is not endangered, from its standpoint, by having 
reached the New START levels well before the United States. We should 
not try to second-guess their judgment as regards the sufficiency of 
Russian strategic nuclear force levels. From an American perspective, I 
cannot believe Russia's having reached the New START levels before we 
have poses any issue for strategic stability. I would, however, regard 
Russian development and deployment of a new heavy ICBM as a 
destabilizing act and I would urge the Russian government not to do so. 
As for Mr. Arbatov's assertion, this could either be a ploy to frighten 
American policy makers into further reductions they may not deem in 
America's interest or another example of heavy-handed Russian bluster. 
If it in fact turns out to be true that Russia builds a new heavy ICBM 
it will tell us that Russia places little regard on U.S. views of 
strategic stability.
    Ms. Sanchez. How might US nuclear posture and signals affect this 
decision? Would you agree that rather than induce Russia to build up, 
it is in the security and financial interests of both countries to 
pursue further, parallel reductions in their strategic nuclear forces 
and to cut the size of their non-deployed reserve stockpiles?
    Mr. Miller. No. I believe we need to continue to deploy whatever 
sized nuclear deterrent meets US national security objectives as 
described above in my answer to question 1. If the New START levels 
exceed those U.S. requirements we should consider negotiations to 
pursue additional reductions. If our requirements cannot be met below 
New START levels we should not pursue further reductions as those would 
endanger our national security. The Russian government is perfectly 
capable of determining for itself whether its nation requirements are 
met by the level of forces it currently fields. Strategic stability is 
a far more important goal than lower numbers.
    Ms. Sanchez. Last year, Joint Chiefs of Staff Vice Chairman Gen. 
James Cartwright has acknowledged, that the approximately 200 U.S. 
tactical nuclear bombs stored in Europe do not serve a military 
function not already addressed by other U.S. military assets. Do you 
agree/disagree? Is there any contribution to nuclear deterrence that 
could not be achieved by our strategic weapons?
    Mr. Miller. I have enormous respect for my friend Jim Cartwright. I 
believe he meant only to indicate that the military task assigned to 
U.S. nuclear weapons based in NATO can be met by other U.S. systems. Of 
course nuclear weapons are different from any other type of weapon and 
have primarily a political role. The political roles of our NATO-based 
weapons--reassurance of allies and deterrence of potential adversaries 
from ``limited aggression'' against NATO--cannot be fulfilled by U.S. 
strategic weapons. Those political roles--influenced deeply by the long 
and unique history of NATO nuclear policy and politics--can only be 
achieved through the continued deployment of U.S. nuclear weapons ion 
NATO soil.
    Ms. Sanchez. Under what likely scenarios would the US tactical 
nuclear weapons in Europe be used, and in what situations would they be 
preferable over other existing weapons, including conventional and 
strategic nuclear weapons?
    Mr. Miller. The assurance and deterrent values of our nuclear 
weapons in Europe are used every day.
    Ms. Sanchez. How relevant are the U.S. tactical nuclear weapons to 
Russia's security calculations? To what extent might the Russians see 
the presence of the tactical nuclear weapons in Europe as an excuse for 
inaction on addressing their own tactical nuclear arsenal?
    Mr. Miller. The obscenely bloated size of the Russian tactical 
nuclear arsenal cannot be justified in the 21st century in any way. It 
is risible to state or conclude that the small U.S. NATO-based nuclear 
stockpile threatens Russian security in any way, much less that it is 
an excuse for Russia to deploy today a tactical nuclear arsenal at 
least 10 times the size of NATO's. The intent of Russian policy--which 
seeks the total eviction of U.S. nuclear weapons from NATO soil--is to 
undermine and destroy NATO allies confidence in the U.S. security 
guarantee to the Alliance and to increase their own ability to 
intimidate NATO members with the nuclear saber-rattling the Russian 
government has repeatedly indulged in over the last several years.
    Ms. Sanchez. In 2008, the Air Force conducted a Blue Ribbon Review 
and found security to be insufficient around some of the sites where 
U.S. tactical nuclear weapons are likely based in Europe. Allies 
apparently made security adjustments. Since then, protestors breached 
security at Klein Brogel Airbase, where some of these weapons are 
thought to be stored. To what extent should nuclear security and 
terrorism be considered in a decision to remove or reduce the tactical 
nukes?
    Mr. Miller. The 2008 Air Force study was intended to bolster the 
view of those elements in the U.S. Air Force who sought the return of 
all U.S. nuclear weapons from Europe. The subsequent 2008 Secretary of 
Defense Task Force on DoD Nuclear Weapons Management (also known as 
``the Schlesinger Task Force'') reviewed the security of U.S. nuclear 
weapons in Europe from an objective perspective and concluded that 
security at our nuclear sites in NATO Europe was adequate as of that 
time but urged that improvements be made when and if required by new 
threats. I believe the Air Force is taking those recommendations 
seriously and acting on them.

                                  <all>

</pre></body></html>
